No.
IN THE SUPREME COURT OF THE UNITED
STATES
October Term,________
Dr. Lakshmi Arunachalam,
Petitioner
v.

INTERNATIONAL BUSINESS MACHINES
CORPORATION,
SAP AMERICA, INC.,
JPMORGAN CHASE & CO.,
Respondents

/
/
i

On Petition for a Writ of Mandamus to the
United States Court of Appeals
For the Federal Circuit
Case No. 20-1493
EMERGENCY PETITION FOR
WRIT OF MANDAMUS
APPENDICES la, 2a, 3a, 4a, 4a, 5a
Dr. Lakshmi Arunachalam
Self-Represented Petitioner
222 Stanford Avenue
Menlo Park, CA 94025
(650) 690-0995
laks22002@yahoo. com

March 25, 2021

RECEIVED
APR - 5 2021
I BjRjjffcTo&fr1fi".i<

15

App. la
Federal Circuit Orders ECF 63 (2/26/21)
and ECF65 (3/1/21)

02/26/2021

63 ORDER filed denying Dr.
Arunaehalam's motion [62] for
leave to file documents. By:
Merits Panel (Per Curiam).
Service as of this date by the
Clerk of Court. [758992] [MJL]
[Entered: 02/26/2021 03:28 PM]

03/01/2021

65

JUDGMENT. AFFIRMED.
Terminated on the merits after
submission on the briefs. COSTS:
Costs to IBM, SAP and
JPMorgan. Mandate to issue in
due course. For Information
regarding costs, petitions for
rehearing, and petitions for writs
of certiorari click here. [759145]
[JCP] [Entered: 03/01/2021 10:16
AM]

65

Case: 20-1493

Document: 65

Page: 1

Filed: 03/01/2021

®mteb States Court of Appeals
for tfje jfeberal Circuit
LAKSHMI ARUNACHALAM,
Plaintiff-Appellant
v.
INTERNATIONAL BUSINESS MACHINES
CORPORATION, SAP AMERICA, INC.,
JPMORGAN CHASE & CO.,
Defendants-Appellees
DOES 1-100,
Defendant

2020-1493
Appeal from the United States District Court for the
District of Delaware in No. l:16-cv-00281-RGA, Judge
Richard G. Andrews.

JUDGMENT

THIS Cause having been considered, it is
Ordered and Adjudged:
AFFIRMED

Entered By Order Of The Court
March 1. 2021

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

16

App. 2a
Federal Circuit Order ECF64
(3/1/21)

03/01/2021

64 OPINION filed for the court by
Lourie, Circuit Judge; Wallach,
Circuit Judge and Chen, Circuit
Judge. Precedential Per Curiam
Opinion.; Striking in part [20]
Appellant's Opening Brief.
[759144] [JCP] [Entered:
03/01/2021 10:13 AM]

Case: 20-1493

Document: 64

Page: 1

Filed: 03/01/2021

Stniteb States Court of Appeals
for tfje jfeberal Circuit
LAKSHMIARUNACHALAM,
Plaintiff-Appellant
v.
INTERNATIONAL BUSINESS MACHINES
CORPORATION, SAP AMERICA, INC., JPMORGAN
CHASE & CO •5
Defendants-Appellees
DOES 1-100,
Defendant
2020-1493
Appeal from the United States District Court for the
District of Delaware in No. l:16-cv-00281-RGA, Judge
Richard G. Andrews.
Decided: March 1, 2021
Lakshmi Arunachalam, Menlo Park, CA, pro se.
Mark J. Abate, Goodwin Procter LLP, New York, NY,
for defendant-appellee International Business Machines
Corporation. Also represented by CALVIN E. WINGFIELD,
JR.; Kevin J. Culligan, JohnP. Hanish, Maynard, Cooper
& Gale, PC, New York, NY.

Case: 20-1493

Document: 64

Page: 2

Filed: 03/01/2021

ARUNACHALAM V. IBM

2

Tharan Gregory Lanier, Jones Day, Palo Alto, CA, for
defendant-appellee SAP America, Inc. Also represented by
Joseph Beauchamp, Houston, TX.
DOUGLAS R. Nemec, Skadden, Arps, Slate, Meagher &
Flom LLP, New York, NY, for defendant-appellee JPMorgan Chase & Co. Also represented by Edward Tulin.

Before LOURIE, WALLACH, and CHEN, Circuit Judges.

Per Curiam.
Appellant, Dr. Lakshmi Arunachalam, appeals from
three decisions of the U.S. District Court for the District of
Delaware (“District Court”): two granting-in-part and
denying-in-part attorneys’ fees to Appellees, SAP America,
Inc. (“SAP”), JPMorgan Chase & Co. (“JPMorgan”), and In­
ternational Business Machines Corp. (“IBM”), see Aru­
nachalam v. Int’l Bus. Machines Corp. (Arunachalam I),
No. CV 16-281-RGA, 2019 WL 1388625, at *2 (D. Del.
Mar. 27, 2019) (Memorandum); C.A. 11 (Order); Arunacha­
lam v. Int’l Bus. Machines Corp. (Arunachalam II), No. CV
16-281-RGA, 2019 WL 5896544, at *3 (D. Del. Nov. 12,
2019) (Memorandum); C.A. 3—4 (Order); and one denying
two of Dr. Arunachalam’s additional motions, C.A. 1—2 (Or­
der Denying Motions to ‘Enforce the Mandated Prohibition’
and to Vacate Its ‘Unconstitutional Order’).1 The District
Court explained that Dr. Arunachalam’s “abusive” litiga­
tion conduct warranted monetary sanctions, Arunachalam
I, 2019 WL 1388625, at *2; see Arunachalam II, 2019 WL
5896544, at *1, and that her two later-filed motions were

i

“A.A.” refers to the appendix attached to Dr. Aru­
nachalam’s opening brief, and “C.A.” refers to the corrected
appendix attached to Appellees’ response brief.

Case: 20-1493

Document: 64

Page: 3

Filed: 03/01/2021

3

ARUNACHALAM V. IBM

baseless and untimely, C.A. 2. We have jurisdiction pursu­
ant to 28 U.S.C. § 1295(a)(1). We affirm.

Background
The relevant facts are numerous and colorful. In
April 2016, Dr. Arunachalam filed suit in the District
Court against IBM and “Does 1-100,” alleging infringement
of U.S. Patent No. 7,340,506 (“the ’506 patent”) and viola­
tions of the Racketeer Influenced and Corrupt Organiza­
tions Act (“the RICO Act”), 18 U.S.C. § 1962, et. seq.
C.A. 46; see C.A. 45—68 (Original Complaint).2 The case
was assigned to Judge Richard G. Andrews. C.A. 22; see
C.A. 19—44 (Civil Docket).
In May 2016, Dr. Arunachalam filed an amended com­
plaint, adding SAP, JPMorgan, and Judge Andrews as de­
fendants. C.A. 83; see C.A. 83—100 (Amended Complaint).
In the Amended Complaint, Dr. Arunachalam repeated her
allegation of infringement of the ’506 patent by IBM
(Count I), C.A. 93, and further alleged that all the defend­
ants had engaged in “[c]ivil [racketeering,” (Count II),
C.A. 96; violated the RICO statute (Count III), C.A. 98, and
conspired “to engage in a pattern of racketeering activity,”
(Count IV), C.A. 99 (capitalization normalized); see C.A. 96
(accusing IBM, SAP, JPMorgan, and Judge Andrews of
“RICO [predicate [a]cts”); 18 U.S.C § 1961(1) (listing pred­
icate “racketeering activities]” under the RICO Act, in­
cluding “any act or threat involving murder, kidnapping,
gambling, arson, robbery, bribery, extortion, dealing in

2 The RICO Act provides, in relevant part, that “[i]t
shall be unlawful for any person through a pattern of rack­
eteering activity or through collection of an unlawful debt
to acquire or maintain, directly or indirectly, any interest
in or control of any enterprise which is engaged in, or the
activities of which affect, interstate or foreign commerce.”
18 U.S.C. § 1962(b).

Case: 20-1493

Document: 64

Page: 4

Filed: 03/01/2021

ABUNACHALAM v. IBM

4

obscene matter, or dealing in a controlled substance or
listed chemical”).
Appellees moved to dismiss Counts II—IV of the
Amended Complaint pursuant to Federal Rule of Civil Pro­
cedure (“FRCP”) 12(b)(6). C.A. 22; see C.A. 110 (SAP argu­
ing that Dr. Arunachalam’s patent infringement
allegations did not qualify as “predicate acts” under the
RICO Act), 112 (IBM contending the same and asking the
District Court “to exercise its inherent power and enter an
appropriate sanction against [Dr. Arunachalam] for filing
spurious RICO claims”). Dr. Arunachalam opposed Appel­
lees’ motion to dismiss, C.A. 27, and Appellees filed reply
briefs, C.A. 27-28. Dr. Arunachalam also filed a motion to
recuse Judge Andrews from the case, C.A. 26, and a motion
for entry of default judgment against Judge Andrews,
C.A. 27.3
The Government filed a Statement of Interest on behalf
of Judge Andrews, C.A. 115, which the District Court “con­
strued as a motion to dismiss” the claims against
Judge Andrews, C.A. 25—26; see C.A. 115 (Statement of In­
terest) (requesting that the District Court “dismiss with
At
prejudice” the claims against Judge Andrews).
Judge Andrews’s request, the District Court referred rul­
ing on the Government’s Statement of Interest and motion
to dismiss to Chief Judge Leonard P. Stark. C.A. 28, 116.
Dr. Arunachalam then moved to recuse Chief Judge Stark.
C.A. 28.
In a September 2016 order, Chief Judge Stark denied
Dr. Arunachalam’s motion to recuse him. C.A. 116; see
C.A. 116-120 (September 2016 Order). Chief Judge Stark
also dismissed the claims against Judge Andrews and dis­
missed him as a defendant. C.A. 119—20; C.A. 119

3

The Clerk of the District Court denied Dr. Aru­
nachalam’s motion for entry of default judgment. C.A. 27.

Case: 20-1493

Document: 64

ARUNACHALAM V. IBM

Page: 5

Filed: 03/01/2021

5

(explaining that “[n]ot only are the allegations raised
against Judge Andrews conclusory, they also speak to ac­
tions taken by him in performance of his judicial duties,”
and thus “seekQ relief barred by the well-established doc­
trine of judicial immunity”). In February 2017, Judge An­
drews denied Dr. Arunachalam’s motion to recuse him.
C.A. 30-31.
In March 2017, the District Court granted Appellees’
motion to dismiss Counts II—IV of the Amended Complaint,
C.A. 122 (Order Dismissing Counts II-IV), explaining that
because “[pjatent infringement is not a crime,” it is “not on
the extensive list of crimes that can be a racketeering
[predicate] act,” C.A. 121 (Memorandum Regarding Mo­
tions to Dismiss) (citing 18 U.S.C § 1961(1)). Though
Dr. Arunachalam had alleged “a laundry list of federal
crimes,” the District Court found that her “[Ajmended
[Cjomplaint makes no plausible factual allegations to sup­
port any of them.” C.A. 121.4 The District Court also
granted Dr. Arunachalam “leave to file a motion to amend
complying with [the District Court’s Local Rule] 15.1,” and
dismissed SAP and IBM’s requests for sanctions “without
prejudice to later renewal.” C.A. 122.

4 Despite the District Court’s dismissal of Dr. Aru­
nachalam’s RICO claims against IBM, SAP, and JPMorgan, Dr. Arunachalam reasserted these claims in a later
action filed in the U.S. District Court for the Northern Dis­
trict of California. See Arunachalam u. Apple, Inc. (Aru­
nachalam N.D. Cal.), No. 5:18-CV-01250-EJD, 2018 WL
5023378, at *3-4, *4 n.2 (N.D. Cal. Oct. 16, 2018), aff’d, 806
F. App’x 977 (Fed. Cir. 2020) (dismissing Dr. Arunacha­
lam’s “confusing” and “disorganized” claims of, inter alia,
“RICO violations” against IBM, SAP, and JPMorgan, as
well as ten other defendants, and noting that the claims
were “identical to the RICO claims brought against IBM,
SAP, and JPMorgan ... in the District of Delaware”).

Case: 20-1493

6

Document: 64

Page: 6

Filed: 03/01/2021

ARUNACHALAM v. IBM

Dr. Arunachalam next filed a motion to vacate the Dis­
trict Court’s dismissal of Counts II—IV of the Amended
Complaint, and another motion to recuse Judge Andrews.
C.A. 31.5 Dr. Arunachalam then filed a motion for leave to
amend her pleadings, C.A. 31—32, which the District Court
denied in January 2018, explaining that Dr. Arunachalam’s 102-page proposed second amended complaint vio­
lated the District Court’s Local Rule 15.1, C.A. 124—25. As
Dr. Arunachalam had been “explicitly told to comply with
the rule,” the District Court found that her failure to do so
was “willful and in bad faith.” C.A. 124. The District Court
also prohibited “[a]ny further attempt to amend . . . with­
out leave of court,” and stated that “[t]he case will proceed”
as to the sole remaining claim in the Amended Complaint,
Count I, alleging infringement of claims 20 and 21 of the
’506 patent. C.A. 124.6
Meanwhile, in December 2017, the U.S. Patent &
Trademark Office’s Patent Trial & Appeal Board (“PTAB”)
issued a Final Written Decision (“the PTAB Decision”) find­
ing that “claims 20 and 21 of the ’506 Patent are unpatent­
able” and denying Dr. Arunachalam’s motion to amend to
add proposed new claims 22—49. SAP Am., Inc. v. Aru­
nachalam, No. CBM2016-00081, 2017 WL 6551158, at *23
(P.T.A.B. Dec. 21, 2017).7 After the period for an appeal of

5 In June 2017, Dr. Arunachalam filed a third mo­
tion to recuse Judge Andrews, while her second motion was
still pending. C.A. 32.
6 The District Court also denied Dr. Arunachalam’s
motion to vacate its order dismissing Counts II—IV of the
Amended Complaint, as well as Dr. Arunachalam’s second
and third motions to recuse Judge Andrews. C.A. 32.
7 Previously, in an inter partes reexamination, the
Patent Examiner rejected claims 1—19 of the ’506 patent,
which the PTAB affirmed. Microsoft Corp. v. WebXchange,

Case: 20-1493

Document: 64

ARUNACHALAM V. IBM

Page: 7

Filed: 03/01/2021

7

the PTAB Decision had expired without an appeal by
Dr. Arunachalam, IBM moved to dismiss Count I of the
Amended Complaint. C.A. 126. IBM argued that because
Dr. Arunachalam “has not timely appealed from the
PTAB’s [D]ecision,” the PTAB would “issue a certificate of
cancellation of claims 20 and 21 of the ’506 patent—the
only remaining claims in the patent-in-suit,” and thus “[a]
dismissal with prejudice is . . . appropriate.” C.A. 126.
Dr. Arunachalam opposed dismissal of Count I, arguing
that “[tjhere [was] no need for [her] to appeal the PTAB’s
ultra vires unconstitutional and hence void decision ‘inval­
idating’ the ’506 patent, because the PTAB Judges” lacked
“jurisdiction and immunity.” C.A. 127; see C.A. 127
(Dr. Arunachalam arguing that “the lawless misconduct
and Constitutional public breach and fraud by the PTAB
and the Federal Circuit... voids their rulings and cause[s]
them to lose their jurisdiction” and that we had “refused to
uphold” our own precedent “in a blatant civil rights dis­
crimination against [her]”).
In May 2018, the District Court granted IBM’s motion
to dismiss Count I with prejudice, concluding that the
PTAB Decision “mean[s] there are no valid claims in the
’506 patent to assert.” C.A. 129-30; see C.A. 129—31 (Dis­
missal Order).8 Dr. Arunachalam then filed a motion for

Inc., No. 2013-008997, 2014 WL 2968085, at *23 (P.T.A.B.
June 27, 2014).
8
The District Court also dismissed Dr. Arunachalam’s motion for leave to file a sur-reply to IBM’s motion to
dismiss, as well as a motion “for this court to give a state­
ment of decision on whether contract law applies to pa­
tents,” C.A. 34 (capitalization normalized), which the
District Court construed as “essentially a request that [the
court] find the PTAB system allowing for the invalidation
of issued patents to be unconstitutional,” C.A. 130. The
District Court found “no basis for declaring the [Covered

Case: 20-1493

8

Document: 64

Page: 8

Filed: 03/01/2021

ARUNACHALAM V. IBM

reconsideration, styled as a “Motion to Alter or Amend a
Judgment Pursuant to FRCP . . . 59(e), and Motion for Re­
lief From a Judgment or Order Pursuant to
[FRCPs] 60(b)(2), 60(b)(3), 60(b)(4), 60(b)(5), 60(b)(6),
60(d)(1) and 60(d)(3).” C.A. 34.9 Appellees opposed
Dr. Arunachalam’s motion for reconsideration, C.A. 34,
and SAP and IBM again sought sanctions, C.A. 132—33
(SAP “renew[ing] its request for sanctions,” as “[notwith­
standing th[e] [District] Court’s dismissal of [Dr. Aru­
nachalam’s] RICO claims against SAP, [she] re-asserted
her RICO cause of action against SAP in a subsequent law­
suit in N.D. California” and “is now seeking reconsidera­
tion of the [District] Court’s dismissal of [her] RICO causes
of action for the second time” (emphasis omitted)), 134
(IBM arguing that Dr. Arunachalam’s motion for reconsid­
eration “is the latest in a long line of frivolous motions and
pleadings in an action that can only be characterized as
vexatious” and renewing its request for sanctions).
In June 2018, the District Court denied Dr. Arunacha­
lam’s motion for reconsideration on all grounds. C.A. 138—
39; see C.A. 137—39 (Order Denying Reconsideration). The
District Court found that none of Dr. Arunachalam’s cited
“points and authorities” qualified “as a possible basis for
reconsideration” under FRCP 59(e). C.A. 138 (citing Lazaridis u. Wehmer, 591 F.3d 666, 669 (3d Cir. 2010) (“A
proper [FRCP] 59(e) motion therefore must rely on one of
three grounds: (1) an intervening change in controlling law;
(2) the availability of new evidence; or (3) the need to cor­
rect clear error of law or prevent manifest injustice.”)). The
District Court also found that Dr. Arunachalam’s “argu­
ments citing various subsections of [FRCP] 60” were

Business Method] procedure to be unconstitutional.”
C.A. 131.
9
Dr. Arunachalam’s motion for reconsideration is
not in the record. See generally A.A.; C.A.

Case: 20-1493

Document: 64

ARUNACHALAM v. IBM

Page: 9

Filed: 03/01/2021

9

similarly meritless. C.A. 138; see, e.g., C.A. 138 (explaining
that Dr. Arunachalam sought “relief under [FRCP] 60(b)(3)
claiming fraud, but she does not allege any fraud in this
case”)-10 The District Court then stated that though “SAP

10 In July 2018, Dr. Arunachalam appealed virtually
all of the District Court’s orders to the Federal Circuit.
C.A. 35. In January 2019, we affirmed “the [DJistrict
[C]ourt’s dismissal of the patent infringement claim
against IBM, dismissal of all RICO claims against all de­
fendants, denial of the motion for leave to file a second
amended complaint, denials of motions to recuse, and all
other district court rulings challenged by Dr. Arunachalam
in this appeal.” Arunachalam v. Inti Bus. Machines Corp.
(Arunachalam III), 759 F. App’x 927, 934 (Fed. Cir. 2019),
cert, denied, 140 S. Ct. 249 (2019), reh’g denied, 140 S. Ct.
578 (2019). We explained that the District Court “correctly
dismissed the RICO claims for failure to state a claim” be­
cause “patent infringement is not a recognized predicate
‘racketeering activity’ for a RICO claim .. . [n]or do the rest
of the pleadings sufficiently support any of the other al­
leged predicate acts.” Id. at 931. We found that the Dis­
trict Court “did not abuse its discretion in denying
Dr. Arunachalam leave to amend the complaint for a sec­
ond time,” because her proposed second amended com­
plaint “still lack[ed] factual allegations to support a
cognizable predicate act for RICO.” Id. at 932. We also
found that because Dr. Arunachalam did not timely appeal
the PTAB Decision invalidating claims 20 and 21 of the
’506 patent, the PTAB Decision “is final and may not be
collaterally attacked through a separate litigation,” thus
mooting Count I’s allegation of patent infringement. Id.
at 933. Finally, we found that the District Court did not
abuse its discretion in denying recusal of Judge Andrews
and Chief Judge Stark, as Dr. Arunachalam had not

Case: 20-1493

10

Document: 64

Page: 10

Filed: 03/01/2021

ARUNACHALAM v. IBM

and IBM express an interest in attorneys’ fees and/or other
sanctions,” any parties seeking attorneys’ fees should file
such requests “by separate motion.” C.A. 139.
In July 2018, Appellees individually moved for sanc­
tions in the form of attorneys’ fees, as well as injunctions
against further filings by Dr. Arunachalam. C.A. 36. After
the motions for sanctions and pre-filing injunctions were
fully briefed, Dr. Arunachalam moved for leave to file a surreply, which necessitated responsive briefing by Appellees.
C.A. 38. The District Court granted Dr. Arunachalam
leave to file a surreply, which she did not file. C.A. 39.
In March 2019, the District Court granted SAP and
JPMorgan’s motion for attorneys’ fees for “defending
against a baseless racketeering lawsuit,” Arunachalam I,
2019 WL 1388625, at *2-3, and granted-in-part IBM’s mo­
tion, id. at *3; see id. (awarding IBM attorneys’ fees only
for “two . . . pleadings,” as Dr. Arunachalam’s ownership of
the ’506 patent and history with IBM “made her racketeer­
ing suit against them a little more plausible [than against
SAP and JPMorgan] if nevertheless still not even close to
stating a colorable complaint”). The District Court did not
rule on the specific fee amounts and ordered Appellees to
submit further documentation. Id. at *4.11
Appellees then filed new motions for attorneys’ fees
with supporting materials. C.A. 39—40. In May 2019,
Dr. Arunachalam filed her opposition, as well as a list of

contested the factual bases supporting the denials.
at 933-34.

Id.

11 The District Court denied Appellees’ motions for
pre-filing injunctions, finding that SAP and IBM’s pro­
posed injunctions were not “narrowly tailored” and stating
that “the imposition of monetary sanctions might be as ef­
fective in discouraging improper behavior.” Arunacha­
lam I, 2019 WL 1388625, at *1.

Case: 20-1493

Document: 64

ARUNACHALAM V. IBM

Page: 11

Filed: 03/01/2021

11

questions, styled as “Interrogatories Propounded to De­
fendants, their Counsel of Record and Hon. Judge An­
drews.” C.A. 41; see C.A. 140-41 (Interrogatories). This
necessitated a responsive filing by Appellees. C.A. 41.
Dr. Arunachalam then filed two motions requesting that
Judge Andrews and “attorneys of record” produce to
Dr. Arunachalam a copy of their oaths of office, “foreign
registration statements,” as well as “bond” and “insurance
information.” C.A. 41 (capitalization normalized). These
motions also necessitated a responsive filing by Appellees.
C.A 42.
In November 2019, the District Court granted JPMorgan and SAP’s motions for attorneys’ fees and granted-inpart IBM’s motion for attorneys’ fees. Arunachalam II,
2019 WL 5896544, at *3. The District Court awarded
$57,190.40 to JPMorgan, $51,772.09 to SAP; and $40,000
to IBM. Id. at *2-3. The District Court also denied
Dr. Arunachalam’s two “frivolous” motions seeking oaths
of office and additional information from Judge Andrews
and “attorneys of record,” another motion seeking to recuse
Judge Andrews, and a motion seeking to recuse both
Judge Andrews and Chief Judge Stark. Id. at *1.
Dr. Arunachalam then filed two additional motions,
the first styled as “M[otion] And Notice to Enforce the Man­
dated Prohibition from Repudiating Government-Issued
Contract Grants of Any Kind as Declared by Chief Justice
Marshall in Fletcher [v]. Peck (1810) and Trustees of Dart­
mouth College [v]. Woodward (1819) Which Have Never
Been Repudiated and Stand as the Law of the Land and
Case, of Which this Courts Solemn Oath Duty Compels this
Court to Enforce above All Else, with All Due Respect,”
C.A. 42 (Motion to Enforce the Mandated Prohibition), and
the second as “M[otion] for the Court to Vacate Its Uncon­
stitutional Order . . . and Enter a New and Different Or­
der,” C.A. 43 (Motion for the Court to Vacate Its

Case: 20-1493

Document: 64

Page: 12

Filed: 03/01/2021

ARUNACHALAM V. IBM

12

Unconstitutional Order).12 In January 2020, the District
Court dismissed these two motions, explaining that
Dr. Arunachalam had filed the first motion “in eight differ­
ent cases,” without reference “as to why it was filed in this
case,” and “cit[ing] no rules as to why it could possibly be
timely.” C.A. 2. The District Court construed the second
motion “as a motion for reconsideration,” but found that it
“does not meet the standard for reconsideration be­
cause . . . what it is really challenging is the underlying de­
cision that was affirmed by the Court of Appeals for the
Federal Circuit”—i.e., the dismissal of Counts I—IV of the
Amended Complaint—and “it is too late to move to recon­
sider that decision[.]” C.A. 2.

Discussion
I. The Court’s Inherent Power to Impose Sanctions
A. Standard of Review and Legal Standard
“We review a court’s imposition of sanctions under its
inherent power for abuse of discretion.” Chambers v.
NASCO, Inc., 501 U.S. 32, 55 (1991); see Amsted Indus.
Inc. v. Buckeye Steel Castings Co., 23 F.3d 374, 379 (Fed.
Cir. 1994) (“This court reviews the lower court’s use of its
inherent power to impose sanctions under the abuse of dis­
cretion standard.” (citing Chambers, 501 U.S. at 54—55)).
“An abuse of discretion occurs when a district court’s deci­
sion commits legal error or is based on a clearly erroneous
assessment of the evidence.” Univ. of Utah v. Max-PlanckGesellschaft zur Foerderung der Wissenschaften e.V., 851
F.3d 1317, 1322 (Fed. Cir. 2017).
“Courts of justice are universally acknowledged to be
vested, by their very creation, with power to impose silence,
respect, and decorum, in their presence, and submission to

12 The full text of these motions is not in the record.
See generally A.A.; C.A.

Case: 20-1493

Document: 64

ARUNACHALAM V. IBM

Page: 13

Filed: 03/01/2021

13

their lawful mandates.” Chambers, 501 U.S. at 43 (inter­
nal quotation marks and citation omitted). “These powers
are governed not by rule or statute but by the control nec­
essarily vested in courts to manage their own affairs so as
to achieve the orderly and expeditious disposition of cases.”
Id. (internal quotation marks and citation omitted). Spe­
cifically, federal courts “may assess attorney[s’] fees when
a party has acted in bad faith, vexatiously, wantonly, or for
oppressive reasons.” Id. at 45—46 (internal quotation
marks and citation omitted); see Pickholtz v. Rainbow
Techs., Inc., 284 F.3d 1365, 1378 (Fed. Cir. 2002) (holding
that “the inherent power can be used to shift attorney [s’]
fees when there has been . . . conduct that is in bad faith,
vexatious, wanton, or for oppressive reasons”). “The impo­
sition of sanctions” under a court’s inherent power serves
“the dual purpose of vindicating judicial authority without
resort to the more drastic sanctions available for contempt
of court and making the prevailing party whole for ex­
penses caused by his opponent’s obstinacy.” Chambers,
501 U.S. at 46 (internal quotation marks, citation, and al­
terations omitted).
B. The District Court Did Not Abuse Its Discretion in Im­
posing Sanctions Against Dr. Arunachalam
The District Court, exercising its inherent authority,
concluded that “monetary sanctions” were “a reasonable re­
sponse to [Dr. Arunachalam’s] conduct.” Arunachalam I,
2019 WL 1388625, at *3. The District Court explained that
Dr. Arunachalam was an “abusive” and “prodigious liti­
gant,” who forced Appellees to defend “a baseless racket­
eering lawsuit” and to respond to numerous meritless
motions and oppositions, “willful[ly] and in bad faith” failed
to comply with the District Court’s Local Rules and instruc­
tions, filed “repetitive motions for recusal” lacking a “valid
basis,” and otherwise engaged in “vexatious conduct.” Id.
at *2-3.
The District Court subsequently awarded
$57,190.40 in attorneys’ fees to JPMorgan, $51,772.09 to
SAP, and $40,000 to IBM. Arunachalam II, 2019 WL

Case: 20-1493

14

Document: 64

Page: 14

Filed: 03/01/2021

ARUNACHALAM V. IBM

5896544, at *2—3. Dr. Arunachalam argues that we cannot
“affirm the District Court’s sanctions and attorneys’ fees
without offending the Constitution.” Appellant’s Br. 55
(capitalization normalized). We disagree with Dr. Aru­
nachalam.
The District Court did not abuse its discretion in im­
posing monetary sanctions. The record amply demon­
strates Dr. Arunachalam’s vexatious and wanton litigation
conduct. For example, Counts II-IV of the Amended Com­
plaint accuse SAP and JPMorgan of three RICO violations,
C.A. 96-100, yet the only factual allegations against them
concern: the District Court’s personal jurisdiction over
them, C.A. 87—88; their alleged use of “[Dr. Arunachalam’s]
patented Web applications on a Web browser,” C.A. 87; and
their lack of a license “under the ’506 patent,” C.A. 91. As
of the date of the issuance of this opinion, these allegations
have embroiled SAP and JPMorgan in baseless litigation
for over four and a half years. C.A. 22 (showing a filing
date of May 2016 for the Amended Complaint). Even after
the dismissal of her RICO claims against Appellees in the
District Court, Dr. Arunachalam reasserted those same
claims against Appellees in another action in the U.S. Dis­
trict Court for the Northern District of California, further
evidencing her vexatious and bad faith conduct. See Aru­
nachalam N.D. Cal., 2018 WL 5023378, at *4, *4 n.2.
During litigation, Dr. Arunachalam forced Appellees
and the District Court to expend resources responding to
her repetitive, frivolous, and often bizarre oppositions and
motions. C.A. 26—44 (showing a total of seven motions filed
by Dr. Arunachalam to recuse Judge Andrews and two to
recuse Chief Judge Stark), 34 (Dr. Arunachalam moving
for reconsideration of the District Court’s dismissal of
Count I), 34 (Dr. Arunachalam moving for “a Statement of
Decision on Whether Contract Law Applies to Patents”),
34—42 (detailing Appellees’ responsive filings), 38 (Dr. Aru­
nachalam moving for leave to file a surreply to Appellees’
motions for sanctions, which she did not file after the

Case: 20-1493

Document: 64

AKUNACHALAM v. IBM

Page: 15

Filed: 03/01/2021

15

District Court’s grant of leave), 41 (Dr. Arunachalam’s two
motions requesting that Judge Andrews and “attorneys of
record” produce to her their oaths of office, “foreign regis­
tration statements,” and insurance information), 127
(Dr. Arunachalam opposing dismissal of Count I of the
Amended Complaint even after the PTAB had invalidated
the relevant, and indeed, only remaining, claims of the ’506
patent), 141 (Dr. Arunachalam asking in her “Interrogato­
ries,” filed after dismissal of all counts of the Amended
Complaint, whether any of the Appellees, their counsel of
record, or Judge Andrews had ever associated with, inter
alia, “the Defense Advanced Research Projects Agency
(DARPA),” and claiming that “Defendants have colluded
with Judge Andrews and brazenly devised schemes to
evade the Government and the laws of the United States”).
Dr. Arunachalam also willfully failed to comply with the
District Court’s specific instructions regarding the filing of
a second amended complaint. C.A. 122 (the District Court
granting Dr. Arunachalam leave to file a motion to amend
the Amended Complaint “complying with [the District
Court’s Local Rule] 15.1”), 124 (the District Court explain­
ing that Dr. Arunachalam’s 102-page proposed second
amended complaint did not comply with its Local
Rule 15.1).
Finally, the District Court awarded reasonable attor­
neys’ fees. The District Court applied the “lodestar” ap­
proach, calculating attorneys’ fees by “multiplying the
amount of time reasonably expended by reasonable hourly
rates[.]” Arunachalam II, 2019 WL 5896544, at *2 (quoting
Parallel Iron LLC v. NetApp, Inc., 84 F. Supp. 3d 352, 356
(D. Del. 2015)); see Bywaters v. United States, 670
F.3d 1221, 1225—26 (Fed. Cir. 2012) (explaining that “the
amount of attorneys’ fees to be awarded under the ‘lodestar’
approach” is calculated “by multiplying the number of
hours reasonably expended by a reasonable hourly rate”).
For SAP and JPMorgan, the District Court “reviewed the
documentary support in relation to the actual billings,” the

Case: 20-1493

16

Document: 64

Page: 16

Filed: 03/01/2021

AEUNACHALAM v. IBM

hourly rates charged, and the pleadings produced during
the relevant periods. Arunachalam II, 2019 WL 5896544,
at *3.13 The District Court concluded that the claimed
hours and rates were “reasonable,” and awarded SAP and
JPMorgan their requested amounts of fees. Id.; see id.
(awarding $51,772.09 to SAP and $57,190.40 to JPMor­
gan). The District Court performed the same analysis for
IBM’s requested $57,034.38 in fees, and found that though
the rates and hours were reasonable, “the filings . . . ap­
pear to involve some billing for duplication of effort [.]” Id.
at *2. Thus, the District Court awarded IBM fees in the
reduced amount of $40,000. Id. Accordingly, the District
Court did not abuse its discretion in imposing sanctions for
Dr. Arunachalam’s vexatious litigation conduct.
See
Chambers, 501 U.S. at 45—46.
Dr. Arunachalam’s counterargument is unpersuasive.
Dr. Arunachalam contends, without offering more, that we
cannot “affirm the District Court’s sanctions and attorneys’
fees without offending the Constitution,” Appellant’s
Br. 55, specifically, her rights under the First, Fifth,
Eighth, and Fourteenth Amendments, id. at. 2—3. Dr. Aru­
nachalam’s assertions are insufficiently developed. “In or­
der for this court to reach the merits of an issue on appeal,
it must be adequately developed.” Monsanto Co. v.
Scruggs, 459 F.3d 1328, 1341 (Fed. Cir. 2006); see id. (hold­
ing that undeveloped arguments are “deemed waived");
United States v. Dunkel, 927 F.2d 955, 956 (7th Cir. 1991)
(“A skeletal ‘argument’, really nothing more than an asser­
tion, does not preserve a claim.”). This argument is, ac­
cordingly, waived.

13 Dr. Arunachalam opposed Appellees’ requested
fees, arguing that “[n]ot one dollar is reasonable,” “Defend­
ants plagiarized each other,” and took “less than [fifteen]
minutes to write their briefs.” Arunachalam II, 2019 WL
5896544, at *3.

Case: 20-1493

Document: 64

ARUNACHALAM V. IBM

Page: 17

Filed: 03/01/2021

17

C. The Scandalous and Irrelevant Statements in Dr. Arunachalam’s Briefs Are Stricken
Dr. Arunachalam’s briefing before us is replete with
scandalous and baseless allegations similar to those she
made below, all presented without a semblance of factual
support.14 Dr. Arunachalam alleges that Appellees and

14 “The court may,” acting “on its own,” “strike from a
pleading. . . any redundant, immaterial, impertinent, or
scandalous matter.” FED. R. ClV. P. 12(f)(1). Courts have
applied several definitions for what constitutes “scandal­
ous matter.” Courts may, for example, strike as “clearly . . .
scandalous” a plaintiffs brief “contain[ing] many allega­
tions wholly aside from the charges made in [the] com­
plaint, and bearing reproachfully upon the moral character
of individuals,” Green v. Elbert, 137 U.S. 615, 624 (1891),
or allegations “bear[ing] no possible relation to the contro­
versy or [that] may cause the objecting party prejudice,”
Talbot v. Robert Matthews Distrib. Co., 961 F.2d 654, 664
(7th Cir. 1992); see Alvarado-Morales v. Digital Equip.
Corp., 843 F.2d 613, 617-18 (1st Cir. 1988) (describing as
scandalous “matter which impugned the character of de­
fendants”); Cobell v. Norton, 224 F.R.D. 1, 5 (D.D.C. 2004)
(stating that “scandalous” statements are those which “un­
necessarily reflect^ on the moral character of an individual
or state Q anything in repulsive language that detracts
from the dignity of the court” (internal quotation marks
and citation omitted)). Further, courts have struck “scan­
dalous matter” in a variety of contexts, such as when plain­
tiffs, without a factual basis, alleged the defendants had
intentionally caused a salmonella outbreak at a dairy pro­
ducer, Talbot, 961 F.2d at 664, and where a pro se plaintiff
alleged, inter aha, “a world-wide religious inquisition” and
“illegal wiretapping by the U.S. Government,” Atraqchi v.
Williams, 220 F.R.D. 1, 3 (D.D.C. 2004); see id. (describing
the allegations as “immaterial, scandalous and frankly

Case: 20-1493

18

Document: 64

Page: 18

Filed: 03/01/2021

ARUNACHALAM V. IBM

“all counsel” have “collusively engaged in obstruction of
justice, aided and abetted by Judges Stark and Andrews,”
Appellant’s Br. 6, have “knowingly, willfully, intentionally,
recklessly, [and] negligently ma[de] False Official State­
ments, causing damage to [Dr. Arunachalam’s] patents and
her pristine character/reputation,” and have “us[ed] the
courts as a vehicle to propagate libel,” id. at 4-5; see id. at
2 (stating that Appellees, their counsel, and the PTAB have
colluded “in a corrupt criminal enterprise”). She claims Ap­
pellees’ counsel “have violated their solemn oaths of office,”
“must be disbarred and sanctioned,” and that their “willful
misrepresentations . . . constitute fraud on the [c]ourt.” Id.
at 16—17 (capitalization normalized). She alleges that “Ap­
pellees’ attorneys engaged in a false propaganda of collat­
eral estoppel from void Orders by financially-conflicted
judges,” id. at 11, and that the District Court “ke(pt] her
gagged so as to prevent her from speaking to defend her­
self,” id. at 8.
Further, Dr. Arunachalam makes multiple demonstra­
bly false statements of fact in her briefing. For example, in
her opening brief, Dr. Arunachalam states that “[n]o Fed­
eral Court [has] ruled that [her] Claims 1—21 of [her] ’506
patent are invalid,” Appellant’s Br. 13, and that “the PTAB
never reached the patent case” as to the validity of the ’506
patent, id. at 16 (emphasis omitted). However, as noted
above, the PTAB affirmed the Patent Examiner’s cancella­
tion of claims 1—19 of the ’506 patent, see Microsoft, 2014

delusional”); Collura v. City of Philadelphia, 590 F. App’x
180, 185 (3d Cir. 2014) (affirming the district court’s dis­
missal of a pro se complaint “replete with abusive language
and ad hominem attacks” under FRCP 12(f)); c.f. Chou v.
Univ. of Chicago, 254 F.3d 1347, 1366 (Fed. Cir. 2001)
(finding the district court did not abuse its discretion in
striking plaintiffs “redundant and immaterial” allegations
of academic theft and fraud under FRCP 12(f)).

Case: 20-1493

Document: 64

ARUNACHALAM V. IBM

Page: 19

Filed: 03/01/2021

19

WL 2968085, at *23, and issued a Final Written Decision
finding claims 20 and 21 of the ’506 patent unpatentable
and denying Dr. Arunachalam’s motion to amend to add
proposed new claims 22—49, SAP, 2017 WL 6551158, at *1;
see id. at *23 (finding that “the subject matter of claims 20
and 21 of the ’506 [pjatent are directed to ineligible subject
matter under 35 U.S.C. § 101” and obvious over the prior
art). The District Court dismissed Dr. Arunachalam’s
claim of infringement of claims 20 and 21 of the ’506 patent,
noting that “[cjlaims 1-19 had been cancelled earlier” and
“[t]hus, the PTAB decision meant there [we]re no valid
claims in the ’506 patent to assert.” C.A. 129. We affirmed
the District Court’s dismissal. See Arunachalam III, 759
F. App’x at 934.
Dr. Arunachalam’s bizarre and scandalous statements
extend to this court, the Judiciary, and indeed the Govern­
ment as a whole. She alleges that we have colluded with
the District Court, the PTAB, and Appellees in a “collateral
estoppel farce propagated against multiple [cjourts,” Ap­
pellant’s Br. 13, and that we have “committed treason,” id.
at 18; see id. (claiming that “[t]his [cjourt needs to have a
criminal investigation started against all the Constitu­
tional tortfeasors,” and “the Judges, [the] PTAB Adminis­
trative Judges[,] and lawyers who breached their solemn
oaths of office . . . must be arrested”). Dr. Arunachalam
states that we have “failed to apply Governing Supreme
Court Precedents,” as well as our own precedent, to her
case, and that our “rulings are all void.” Id. at 13. She
claims that “the Courts and [the PTAB]” “injured” her
“through a treasonous breach of solemn oaths of office by
Judges and officers of the court and the corruption of fraud
of the court and the [PTAB].” Id. at 17. Dr. Arunachalam
also alleges that “the Judiciary[,] the Executive Branch . ..
and [the] Legislative Branch.. . violated] the Contract
Clause and the Separation of Powers Clauses of the Con­
stitution^]” Id. at 12—13. This is far from an exhaustive

Case: 20-1493

20

Document: 64

Page: 20

Filed: 03/01/2021

ARUNACHALAM V. IBM

list of Dr. Arunachalam’s allegations. See generally id. 1—
58; Reply Br. 1—27.
Further, Dr. Arunachalam’s scandalous and unsup­
ported statements are largely irrelevant to the issues on
appeal and take up the vast majority of her briefing, hin­
dering our ability to review her pertinent arguments, if
any. Despite acknowledging that her appeal “stems from
the District Court’s [orders] granting Defendants-Appellees’ Motion for Attorneys’ Fees[,]” Appellant’s Br. 7,
Dr. Arunachalam’s briefing is almost entirely comprised of
accusations pertaining to the PTAB’s cancellation of the
’506 patent and the District Court’s dismissal of her
Amended Complaint, see generally id. 1—58; Reply Br. 1—
27, matters on which we have already ruled and which are
not at issue on appeal, see Arunachalam III, 759 F. App’x
at 933-34 (affirming the District Court’s dismissal of all
counts of the Amended Complaint and explaining that
Dr. Arunachalam’s failure to appeal the PTAB Decision
makes its decision “final” and not subject to collateral at­
tack “through a separate litigation”). Thus, Dr. Arunacha­
lam’s scandalous and irrelevant statements impede
meaningful review of her arguments. See SmithKline Beecham Carp. v. Apotex Corp., 439 F.3d 1312, 1320 (Fed.
Cir. 2006) (‘“Judges are not like pigs, hunting for truffles
buried in briefs.’” (quoting Dunkel, 927 F.2d at 956)).15

15 Additionally, Dr. Arunachalam’s briefing contains
no citations to the record, despite making numerous factual
allegations. See generally Appellant’s Br. 1-58; Reply
Br. 1—27; FED. R. APP. P. 28(a)(6) (“The appellant’s brief
must contain ... a concise statement of the case setting out
the facts relevant to the issues submitted for review . . .
with appropriate references to the recordf.]”), 28(a)(8)(A)
(stating that an appellant’s brief must include an argu­
ment containing the “appellant’s contentions . . . with

Case: 20-1493

Document: 64

ARUNACHALAM V. IBM

Page: 21

Filed: 03/01/2021

21

The scandalous and irrelevant statements in Dr. Arunachalam’s briefing raise the judicial management con­
cerns the Supreme Court identified in Chambers. See 501
U.S. at 43 (describing the courts’ need “to achieve the or­
derly and expeditious disposition of cases” (internal quota­
tion marks and citation omitted)); Finch v. Hughes Aircraft
Co., 926 F.2d 1574, 1578 (Fed. Cir. 1991) (“[Ajppellate
courts must consider the importance of conserving scarce
judicial resources.”). To this end, courts are “vested, by
their very creation,” with “certain implied powers.” Cham­
bers, 501 U.S. at 43 (internal alterations, quotation marks,
and citation omitted); see Micron Tech., Inc. v. Rambus
Inc., 645 F.3d 1311, 1326 (Fed. Cir. 2011) (stating that
“courts have the inherent power to control litigation by im­
posing sanctions appropriate to rectify improper conduct by
litigants” (internal quotation marks and citation omitted)).
These powers are wide-ranging. See Chambers, 501 U.S.
at 43 (“[A] federal court has the power to control admission
to its bar and to discipline attorneys who appear before
it.”); id. at 44 (holding that courts may punish for contempt
those who are “disobedien[t] to the orders of the Judici­
ary”); id. 4A-46 (holding that courts “may bar from the
courtroom a criminal defendant who disrupts a trial[,]”
may “assess attorney[s’] fees when a party has acted in bad
faith, vexatiously, wantonly, or for oppressive reasons,”
and “may act sua sponte to dismiss a suit for failure to pros­
ecute” (internal quotation marks and citation omitted)).
Particularly relevant here, while these “inherent pow­
ers must be exercised with restraint and discretion,” “[a]
primary aspect of that discretion is the ability to fashion an
appropriate sanction for conduct which abuses the judicial
process.” Id. at 44—45; cf. Fed. R. App. P. 38 (providing that
this court may impose sanctions if we “determine!] that an

citations to . . . [the] parts of the record on which the appel­
lant relies”).

Case: 20-1493

22

Document: 64

Page: 22

Filed: 03/01/2021

ARUNACHALAM V. IBM

appeal is frivolous”); Natl, Org. of Veterans Advocates,
Inc. v. Secy of Veterans Affs., 710 F.3d 1328,1335 (Fed. Cir.
2013) (“[W]hile sanctions must be fashioned with restraint
and discretion, courts of justice can fashion appropriate
monetary and nonmonetary sanctions to rectify misbehav­
ior.”).
Even according Dr. Arunachalam wider latitude in
view of her pro se status, her baseless, outlandish, and ir­
relevant invective degrades the dignity and decorum of the
court and hampers “the orderly and expeditious disposition
of cases.” Chambers, 501 U.S. at 43 (internal quotation
marks and citation omitted). Sanctions are appropriate to
address and discourage such abusive conduct. See Con­
nell v. Sears, Roebuck & Co., 722 F.2d 1542, 1554 (Fed.
Cir. 1983) (imposing sanctions and explaining that “we are
duty-bound to guard our segment of the judicial process
against abuse”). We have considered the range of sanctions
discussed above. See Chambers, 501 U.S. at 43—46. In view
of the fact that monetary sanctions have already been as­
sessed in the underlying case, as well as the form of
Dr. Arunachalam’s misconduct, we conclude that a lesser
sanction is appropriate.16 Accordingly, the scandalous and
irrelevant statements in Dr. Arunachalam’s briefs alleging,
inter alia, “obstruction of justice,” “a corrupt criminal en­
terprise,” “libel,” “willful misrepresentations,” and “fraud”
by the District Court, Judges Stark and Andrews, and Ap­
pellees’ counsel, Appellant’s Br. 2—17, as well as “treason,”
collusion in a “collateral estoppel farce,” and “fraud” by the
PTAB, this Court and its Judges, and “the Courts” gener­
ally, id. at 13—17, are stricken.

16 In addition to the assessments of costs, further sub­
missions of a similar character would raise the possibility
of monetary sanctions from this Court. See Chambers, 501
U.S. at 44—45.

Case: 20-1493

Document: 64

Page: 23

Filed: 03/01/2021

23

ARUNACHALAM v. IBM

Conclusion
We have considered Dr. Arunachalam’s remaining ar­
guments and find them unpersuasive.17 Accordingly, the
Judgment of the U.S. District Court for the District of Del­
aware is
AFFIRMED
Costs
Costs to IBM, SAP, and JPMorgan.

17 In her Notice of Appeal, Dr. Arunachalam stated
that, in addition to the District Court’s grant of monetary
sanctions, she was also appealing the denials of her Motion
to Enforce the Mandated Prohibition and Motion for the
Court to Vacate Its Unconstitutional Orders. Notice of Ap­
peal 1—2, ECF No. 1. Yet, Dr. Arunachalam’s briefs did not
address the reasons for the District Court’s denial of these
motions—namely, that she had filed the first motion “in
eight different cases,” without explaining its relevance or
untimeliness, and that the second motion was an attempt
to re-challenge the dismissal of her Amended Complaint,
which we had already affirmed. C.A. 2; see Arunacha­
lam III, 759 F. App’x at 934; see generally Appellant’s
Br. 1—58; Reply Br. 1—27. Accordingly, these issues are
waived. See SmithEJine Beecham Corp. 439 F.3d at 1320.

17

App. 3a:
Petitioner Dr. Lakshmi Arunachalam’s combined
petition for panel rehearing and petition for
en banc rehearing (3/11/21)

2020-1493

In The

UNITED STATES COURT OF APPEALS
For The Federal Circuit

Dr. Lakshmi Arunachalam,
a woman,
v.
INTERNATIONAL BUSINESS MACHINES CORPORATION,
SAP AMERICA, INC.,
JPMORGAN CHASE & CO.,
Defendants-Appellees,
DOES 1-100,
Defendants,

Appeal from the United States District Court for the District of Delaware
in Case No. l:16-cv-281-RGA. Judge Richard G. Andrews

Dr. Lakshmi Arunachalam’s COMBINED PETITION FOR PANEL
REHEARING AND PETITION FOR EN BANC REHEARING
March 11, 2021

Dr. Lakshmi Arunachalam, a woman,
222 Stanford Ave, Menlo Park, CA 94025
Tel: 650.690.0995; Laks22002@yahoo.com
Dr. Lakshmi Arunachalam, a woman,
Self-Represented Appellant

l

TABLE OF CONTENTS

TABLE OF AUTHORITIES

,v

STATUTES

vm

STATEMENT OF PRO SE PLAINTIFF DR. LAKSHMIARUNACHALAM
FOR EN BANC PETITION...............................................................................

IX

1

PRELIMINARY STATEMENT
RES ACCENDENTLUMNA REBUS
ONE THING THROWS LIGHT UPON OTHERS

I. THIS COURT CALLING A DISABLED ELDER WOMAN OF COLOR,
NAMES IN ITS ECF64 ORDER DOES NOT DETRACT FROM THIS
COURT’S MATERIAL OMISSIONS OF THE LEGAL AND FACTUAL BASIS
1
OF THE CASE. NAMELY:
1. Respondents IBM, SAP and JPMorgan Chase & Co. were in Default

1

2. Respondents untimely moved for attorneys’ fees upon District Court Judge
Andrews’ retaliatory Solicitation, two years after the case had been up to the
2
Federal Circuit (18-2105) and the U.S. Supreme Court (Case 19-5033):
3. This Court did not find sanctionable the elder Dr. Arunachalam fighting for her
property rights and Constitutional rights in the earlier Appeal Case 18-2105........2
4. Th Court denied Appellee Presidio Bank’s Motion for sanctions and attorneys’
2
fees in ECF36 in Dr. Arunachalam’s Appeal in Case 19-1223 on 11/19/19
5. The conduct of Government officers, officials and employees violated Dr.
2
Arunachalam’s clearly established statutory and constitutional rights
6. Two or more Government officials conspired to and injured, threatened,
intimidated and baselesslv defamed Dr. Arunachalam, a 73-year old disable elder
woman of color, in the free exercise or enjoyment of her right or privilege secured
3
to her by the U.S. Constitution
li

7. Judge Andrews admitted in the Court docket Respondents had the elder’s
software in the Eclipse Foundation code they distributed, without paying her. This
admission by the District Court Judge is an admission of a RICO enterprise, yet he
7
unlawfully dismissed the case without a hearing
8. Administrative Judges McNamara and Siu had direct stock in a litigant, by their
7
own Disclosures
9. This court punished Dr. Arunachalam for fighting for her constitutional and
property rights. Such inhumane prejudice is wholly unacceptable to a reasonable
7
person
10. No basis in law or facts to affirm

8

11. Panel rehearing or hearing is the only manifest justice

8

II.

PANEL REHEARING IS APPROPRIATE BECAUSE THE PANEL
MISAPPREHENDED THE FACTS ARGUED IN THIS COURT AND
INCORRECTLY USED THOSE FACTS TO THE DECISION TO
10
DISMISS THE APPEAL

A.

The Panel Misapprehended that the Petition for Writ of Mandamus in
Supreme Court Case 20-1145 is still pending, knowing that the Court
was required to stay the case, instead rushed to rule, requiring this
Court to strike its defamatory, unconstitutional, void Orders ECF63,
11
ECF64 and ECF65

B.

The Panel Misapprehended and Misconstrued and Materially Omitted
the Fact that Respondents were in Default in the District Court......... 12

C.

The Panel Did Not Rely on the Totality of Circumstances and Facts, |n
deliberate indifference, and blocked access to the Court to the elder..l3

D.

The Panel Misapprehended and overlooked recent Supreme Court
rulings in Tanzin v. Tanvir and Taylor v. Riojas, that Government
Officials are not protected by absolute immunity when they violate the
14
Constitution

in

III.

£W #4 VC REVIEW IS NECESSARY TO RECONCILE THE PANEL
DECISION’S CONFLICT WITH SUPREME COURT DECISIONS
15
AND THIS COURT PRECEDENT

1. It Is The Elder’s Fundamental Right To Challenge Jurisdiction,
When The Court Had Lost It By Breaching Its Oath Of Office......
CONCLUSION...............................................................................................

15
16

VERIFICATION

17

CERTIFICATE OF COMPLIANCE

18

CERTIFICATE OF SERVICE

19

ADDENDUM: ORDERS

IV

TABLE OF AUTHORITIES

Cases:
Taylor v. Riojas,
592 U.S.__(2020) in U.S. Supreme Court Case No. 19-1261

passim

Tanzin v. Tanvir,
592 U.S.__(2020) in U.S. Supreme Court Case No. 19-71

passim

Central Land Company v. Laidley,
150 U.S. 103 (1895)............

xm

Jordan v. Mass.,
225 U.S. 167(1912)

xm

Falls Brook Irrigation District v. Bradley,
164 U.S. 167-70(1896)...................

xm

Louisville & Nashville Railway Co. v. Kentucky,
183 U.S. 516(1902)....................................

xiv

C.B. & Q. Railway v. Babcock,
204 U.S. 585 (1907)......

xiv

Rhode Island v. Massachusetts,
37 U.S. 657,718(1838).

passim

Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki Co.,
535 U.S. 722 (2002)...............................................

xiv

Kumar v. Ovonic Battery Co., Inc. And Energy Conversion Devices, Inc.,
Fed. Cir. 02-1551, -1574, 03-1091 (2003);
351 F.3d 1364, 1368, 69. (2004).........................................................

xiv

Elliott v. Piersol,
26 U.S. 328, 240(1828)

xiv

Scheuer v. Rhodes,
v

416 U.S. 232, 94 S. Ct. 1683, 1687 (1974)
Cooper v. Aaron,
358 U.S. 1 (1958)

xiv

,xiv

U.S. v. Will,
449 U.S. 200, 216, 101 S.Ct. 471, 66 L. Ed. 2d. 392,406 (1980)

xiv

Cohens v. Virginia,
19 US. 264(1821)

xiv

Brooks v. Yawkey,
200 F. 2d 633 (1953)

passim

Stanard v. Olesen,
74 S. Ct. 768 (1954)

xiv

Trustees ofDartmouth College v. Woodward,
17 U.S. 518(1819).................................

xiv

Grant v. Raymond,
31 U.S. 218 (1832)

xiv

U.S. v. American Bell Telephone Company,
167 U.S. 224 (1897)...........................

.xiv

Fletcher v. Peck,
10 U.S. 87(1810)

.xiv

Arunachalam v. Lyft,
S. Ct. 19-8029 (2019)

xiv

Ableman v. Booth,
62 U.S. 524(1859)

xiv

Sterling v. Constantin,
287 U.S. 397 (1932)

xiv

U.S. v. Burr,
25 F. Cas. 55, 161 (CCD, Va. No. 14693)

xiv

VI

Aqua Products Inc. v. Matal,
Fed Cir. Case 15-1177, October 4, 2017

xiv

Arthrex, Inc. v. Smith & Nephew, Inc.,
No. 2018-2140, slip op. (Fed. Cir. Oct. 31, 2019)

xiv

Virnetx Inc. v. Cisco Systems and USPTO (intervenor)
Fed. Cir. 5/13/2020...............................................

xiv

Cherrington v. Erie Ins. Property and Cas. Co.,
75 S.E. 2d. 508, 513 (W. Va, 2013)........

,xiv

Brown v. Culpepper,
559 F.2d 274, 278 (5th Cir. 1977)

xiv

Bradley v. Richmond School Board,
416 U.S. 696, 723 (1974)......

.xiv

Hensley v. Eckerhart,
461 U.S. 424, 433 (1983)

.xiv

Texas State Teachers Association v. Garland Independent School District,
489 U.S. 782, 791 (1989).......................................................................

,xiv

Farrar v. Hobby,
506 U.S. 103 (1992)

.xiv

Blum v. Stenson,
465 U.S. 886, 898-900 (1984)

xiv

Fleischmann v. Maier Brewing Co.,
386 U.S. 714, 718(1967)......

,xiv

Pence v Langdon,
99 US 578(1878)

.xiv

Vll

Bivens v. Six Unknown Fed. Narcotics Agents,
403 U. S. 388 (1971).............................

xiv

Cohens v. Virginia,
19 U.S. 6 Wheat. 264, 404 (1821)

.xiv

Waters-Pierce Oil Co. v. Texas,
212 U.S. 86(1909).........

xiv, 7

State Farm v. Campbell,
538 U.S. 408 (2003)

xiv, 8

Robinson v. California,
370 U.S. 660 (1962)

xiv, 15

Furman v. Georgia,
408 U.S. 238 (1972)

xiv, 9,15

Weems v. United States,
217 U.S. 349 (1910)

xiv, 15

Solem v. Helm,
463 U.S. 277 (1983)

xiv, 15

Statutes:
First Amendment

Xll

Due Process Clause of the Fourteenth Amendment
Seventh Amendment

6,7
6

Eighth Amendment

.passim

Fourteenth Amendment

passim

vm

STATEMENT OF SELF-REPRESENTED
Dr. Lakshmi Arunachalam FOR EN BANC PETITION
I believe this appeal requires an answer to one or more precedent-setting
questions of exceptional importance:
1. Confronted with the particularly egregious facts of this case, whether any
reasonable officer should have realized that elder victim’s conditions of denial
of access to the court offended the Constitution.
2. Whether it is unconstitutional for the Court to punish an elder, Dr. Arunachalam
for the exercise of a constitutional right.
3. Whether the Appellate Court entertaining an Order from a District Court Judge
without jurisdiction in a case where there was NO Defendant, NO answer to the
Complaint, NO case, NO trial, NO hearing and affirming the District Court’s
award of attorneys’ fees violated clearly established statutory and
constitutional rights of a citizen to due process and a fair hearing.
4. Where the conduct of a Government officer violated clearly established
statutory and constitutional rights of a citizen to due process and a fair hearing,
by direct denial of access to the courts upon the question of due process by
hindering access to the courts or making resort to the courts upon it difficult,
expensive, hazardous, injuring an elder, disabled woman of color, took her
property without due process, entitles the elder to constitutional redress.
5. Whether the Appellate Court can make a decision, after failing to prove
jurisdiction upon breach of oaths of office, in violation of Supreme Court
precedent that once jurisdiction is challenged, a judge cannot move one step
further without proving jurisdiction.
6. Whether the District Court can make a decision, after failing to prove
jurisdiction, after admitting to direct stock ownership in a litigant in the case
and breaching his oath of office.
RES ACCENDENTLUMINA REBUS
ONE THING THROWS LIGHT UPON OTHERS
7. If not, whether any reasonable person would conclude that the Appellate Court
entertaining a void Order without a hearing from a District Court judge without
IX

jurisdiction, who failed to prove jurisdiction upon notice, in a case where the
ONE THING is there is NO Defendant, NO Answer to the Complaint, NO
hearins, NO trial, only a Judge’s Order without a hearing from a judge without
jurisdiction, and the District Court’s award of attorneys’ fees to the victim’s
opponents who failed to file an Answer, is not erroneous and fraudulent and
is not proof of Conspiracy Against Rights in violation of 18 USC §241 to
injure, threaten, or intimidate a person in any state, territory, or district in the
free exercise or enjoyment of any right or privilege secured to the individual by
the U.S. Constitution or the laws of the U.S. and does not constitute denial of
due process and fair hearing to a 73-year old disabled elder woman of color,
entitling her to Constitutional redress.
8. Whether a finding of 8th Amendment deliberate indifference is inconsistent
with a finding of qualified immunity, where the citizen’s right to due process
and a fair hearing, and access to the court upon the question of due process
itself was clearly established at the time of officers’ misconduct and damage to
citizen’s property.
9. Whether this Court must sanction the Government officers for violating the
Constitution and maligning an elder to cover up their own misfeasance,
malfeasance, nonfeasance and breaching their oaths of office and violating hate
crime laws, and committing obstruction of justice and aiding and abetting anti­
trust and conspiring to deprive the citizen of her property and have them pay
monetary damages to Dr. Arunachalam as a remedy against government
workers who violate the Constitution, where “this exact remedy has coexisted
with our constitutional system since the dawn of the Republic.”
10.Where Defendants failed to answer the Complaint, and the Appellate Court’s
void Order without jurisdiction is defacto the Answer to the Complaint making
it the defacto Defendant, any reasonable officer confronted with the particularly
egregious facts of this case, should have realized that victim’s conditions of
denial of access to the court offended the Constitution, requiring this Court to
strike it’s void Orders that maligned the elder for fighting for her constitutional
rights and property rights.
11. Whether the Federal Circuit in deceiving the Supreme Court by its material
omissions that there was never a trial nor a hearing, no Defendant, no Answer
to the Complaint, in this case since 2016, makes its Order on appeal void and
must be stricken, as the Appellate brief is a surprise, the Federal Circuit’s Order
is the defacto answer, the Federal Circuit turned into the defacto Defendant.
x

12. Whether it is inconsistent with the standards of the Supreme Court, where two
or more Government officials conspired to and injured, threatened, and
intimidated an elder woman of color with disabilities in the free exercise or
enjoyment of her right or privilege secured to her by the U.S. Constitution to
due process and a fair hearing and hate crime laws of the U.S.
13. Whether violating the constitutional rights to due process and fair hearing of an
elder woman of color with disabilities by direct denial of access to the courts
upon the question of due process itself, affecting interstate commerce, through
threats, intimidation, defamation, False Official Statements, tampering with
evidence, and excessive force in violation of the 8th Amendment by inflicting
hate crimes upon the elder in violation of 18 U.S.C. §§241, 249; 42 U.S.C.
§1983 and 18 U.S.C. §242, both enacted as part of the Civil Rights Act of 1871,
injuring the elder physically, depriving the elder of her property without due
process, and by breach of oaths of office by Government officials, entitle the
elder to Constitutional redress.
14.Whether this Court obstructing the elder from her right to Constitutional
redress, and hiding behind qualified immunity, depriving the elder of a remedy
for her protected rights to the obligation of Contract which cannot be impaired
by the Supreme Law of the Land, is inconsistent with the standard of the United
States Supreme Court and warrants damages as not only an appropriate remedy
against government workers who violate the Constitution, but that “this exact
remedy has coexisted with our constitutional system since the dawn of the
Republic.”
15.Whether Government officials with no jurisdiction must be sanctioned for
conspiring to violate and violating the constitutional rights to due process and
fair hearing of an elder woman of color with disabilities by direct denial of
access to the courts upon the question of due process itself, affecting interstate
commerce, through threats, intimidation, defamation, excessive force in
violation of the 8th Amendment by inflicting hate crimes upon her, affecting
interstate commerce in violation of 18 U.S.C. §§241, 249; 42 U.S.C. §1983 and
18 U.S.C. §242, the Civil Rights Act, and injuring her physically and depriving
her of her property without due process, hiding behind qualified immunity,
when there can be no right without a remedy, and entitle her to Constitutional
redress.

xi

16. Where the conduct of a Government officer inflicting retaliatory exaction in
dishonor and without jurisdiction, violated:
i.
The 8th Amendment Cruel and Unusual Punishment Clause and inflicted
excessive force on an elder, disabled, female citizen of color;
n
42 U.S.C. §1983; 18 U.S.C. §242, the Civil Rights Act;
m.
the First Amendment; and
iv.
clearly established statutory and constitutional rights of an elderly,
disabled female citizen of color, to due process and a fair hearing, a
neutral judge without stock in the defendant; and
her property was taken without due process;
v.
vi.
she was deprived her of liberty without due process;
vii. citizen injured through the corruption or fraud of the court or other
administrative body disposing of her case, and she is entitled to
Constitutional redress;
viii. they made final decisions upon the ultimate question of due process
which cannot be conclusively codified to any non-judicial tribunal, by
direct denial of access to the courts upon this question of due process by
hindering access to the courts or making resort to the courts upon it
difficult, expensive, hazardous, all alike violate the Constitutional
provision;
ix.
called her names with no evidence of any misconduct on the part of the
elder disabled female citizen complying with all the rules of court;
x.
sadistically and maliciously applied for the very purpose of causing harm
and caused harm to the elder;
xi.
that in the light of pre-existing law, the unlawfulness is apparent and
where the state of the law at the time of the conduct gave the Government
Officer fair warning that their conduct was unconstitutional;
xii.
for fabrication of evidence, where reasonable officers should have
known that they certainly could not fabricate inculpatory evidence;
xiii. and that “citizens are to have a meaningful opportunity to be heard as to
their rights before they are finally deprived of possession of property;”
xiv. suppression of evidence;
xv. tampering with evidence;
xvi. tampering with the record;
xvii. and that the officer’s “curbside courtroom, in which he decided who was
entitled to possession, is precisely the situation and deprivation of rights
to be avoided;”
xviii. where the federal constitutional right claimed by the citizen was clearly
established;
xix. where the officer was not reasonably mistaken about the state of the law;
Xll

xx.
xxi.

of which a reasonable person would have known;
where a ‘reasonable public official’ would have known that his or her
actions violated clearly established law;
xxii. where the Court’s standard “would not allow the official who actually
knows that he was violating the law to escape liability for his actions;”
xxiii. where the Government official’s conduct in fact violated clearly
established law and the immunity defense fails;
xxiv. where a reasonably competent public official should know the law
governing his conduct;
xxv. this Court acted with a motive to suppress citizen's speech;
xxvi. where the subjective element required to establish constitutional tort is
so extreme that every conceivable set of circumstances in which this
constitutional violation occurs is clearly established to be a violation of
the Constitution;
xxvii. where the citizen has provided a showing of subjective deliberate
indifference necessary to establish an Eighth Amendment conditions-ofconfinement/restrictions/restraints claim, which necessarily negates the
officer’s claim to qualified immunity;
xxviii. where the Government official had actual knowledge or awareness
and remained in deliberate indifference;
xxix. where the conduct at issue violated a clearly established constitutional
right;
xxx. The Government official is not entitled to qualified immunity, on the
ground that case law should have made it obvious to a reasonable official
that the conduct was unconstitutional;
xxxi. Where a finding of Eighth Amendment deliberate indifference is
inconsistent with a finding of qualified immunity; and,
xxxii. Where the citizen’s right to access to the Court and due process was
clearly established at the time of officers’ misconduct and damage to
citizen’s property.
I believe the panel decision is contrary to the following decisions of the Supreme
Court of the United States or precedents of this Court:
Taylor v. Riojas, 592 U.S.
(2020) in U.S. Supreme Court Case No. 19-1261;
Tanzin v. Tanvir, U.S. Supreme Court Case No. 19-71, 592 U.S.__(2020);
Central Land Company v. Laidley, 150 U.S. 103 (1895);
Jordan v. Mass., 225 U.S. 167 (1912);
Falls Brook Irrigation District v. Bradley, 164 U.S. 167-70 (1896);
Xlll

Louisville & Nashville Railway Co. v. Kentucky, 183 U.S. 516 (1902);
C.B. & Q. Railway v. Babcock, 204 U.S. 585 (1907);
Rhode Island v. Massachusetts, 37 U.S. 657, 718 (1838);
Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722 (2002);
Kumar v. Ovonic Battery Co., Inc. And Energy Conversion Devices, Inc., Fed. Cir.
02-1551, -1574, 03-1091 (2003); 351 F.3d 1364, 1368, 69. (2004);
Elliott v. Piersol, 26 U.S. 328,240 (1828);
Scheuer v. Rhodes, 416 U.S. 232, 94 S. Ct. 1683, 1687 (1974);
Cooper v. Aaron, 358 U.S. 1 (1958);
U.S. v. Will, 449 U.S. 200, 216, 101 S.Ct. 471, 66 L. Ed. 2d. 392, 406 (1980);
Cohens v. Virginia, 19 US. 264 (1821);
Brooks v. Yawkey, 200 F. 2d 633 (1953);
Stanardv. Olesen, 74 S. Ct. 768 (1954);
Trustees ofDartmouth College v. Woodward, 17 U.S. 518 (1819);
Grant v. Raymond, 31 U.S. 218 (1832);
U.S. v. American Bell Telephone Company, 167 U.S. 224 (1897);
Fletcher v. Peck, 10 U.S. 87 (1810);
Arunachalam v. Lyft, 19-8029, voiding all Orders in a|l of Appellant’s Supreme
Court cases, for want of jurisdiction;
Ableman v. Booth, 62 U.S. 524 (1859);
Sterling v. Constantin, 287 U.S. 397 (1932);
U.S. v. Burr, 25 F. Cas. 55, 161 (CCD, Va. No. 14693);
Aqua Products Inc. v. Matal, Fed Cir. Case 15-1177, October 4, 2017;
Arthrex, Inc. v. Smith & Nephew, Inc., No. 2018-2140, slip op. (Fed. Cir.
Oct. 31,2019);
Virnetx Inc. v. Cisco Systems and USPTO (intervenor) (Fed. Cir. 5/13/2020);
Cherrington v. Erie Ins. Property and Cas. Co., 75 S.E. 2d. 508, 513 (W. Va,
2013);
Brown v. Culpepper, 559 F.2d 274, 278 (5th Cir. 1977);
Bradley v. Richmond School Board, 416 U.S. 696, 723 (1974);
Hensley v. Eckerhart, 461 U.S. 424, 433 (1983);
Texas State Teachers Association v. Garland Independent School District, 489
U.S. 782, 791 (1989);
Farrar v. Hobby, 506 U.S. 103 (1992);
Blum v. Stenson, 465 U.S. 886, 898-900 (1984);
Fleischmann v. Maier Brewing Co., 386 U.S. 714, 718 (1967);
Pence v Langdon, 99 US 578 (1878);
Waters-Pierce Oil Co. v. Texas, 212 U.S. 86 (1909);
State Farm v. Campbell, 538 U.S. 408 (2003);
Furman v. Georgia, 408 U.S. 238 (1972);
xiv

Solem v. Helm, 463 U.S. 277 (1983);
Weems v. United States, 217 U.S. 349 (1910);
Robinson v. California, 370 U.S. 660 (1962);
First, Fifth, Seventh, Eighth and Fourteenth Amendments.
March 11,2021
222 Stanford Avenue,
Menlo Park, CA 94025
Tel: 650.690.0995

Self-Represented Plaintiff-Appellant,
Dr. Lakshmi Arunachalam

xv

PRELIMINARY STATEMENT
Self-Represented

Plaintiff-Appellant,

Dr.

Lakshmi

Arunachalam

(“Dr.

Arunachalam”), hereby, files the combined petition for panel rehearing and
petition for en banc rehearing, which are respectfully requested, for good cause
showing, requiring this Court to strike its defamatory Orders ECF64 and ECF65.
The Court rushed to issue its unconstitutional and void Orders, knowing it was
required to stay this case while Dr. Arunachalam’s Petition for Writ of Mandamus
in Supreme Court Case 20-1145 is still pending.
RES ACCENDENTLUMINA REBUS
ONE THING THROWS LIGHT UPON OTHERS
I. THIS COURT CALLING A DISABLED ELDER WOMAN OF COLOR,
NAMES IN ITS ECF64 ORDER DOES NOT DETRACT FROM THIS
COURT’S MATERIAL OMISSIONS OF THE LEGAL AND FACTUAL
BASIS OF THE CASE.. NAMELY:
1. Respondents IBM, SAP and JPMorgan Chase & Co. were in Default. They
did not file an answer to Dr. Arunachalam’s Complaint filed in 2016 in 16281-RGA (D.Del.).
This case never had a Defendant. There was never a trial. The Complaint is still
waiting for an Answer in the District Court.
The ONE THING here is there is NO Defendant, NO Answer. NO Hearing. NO
trial, only a Judge’s Order without a Hearing from a Judge without jurisdiction
who held direct stock in a litigant in the case and breached his solemn oath of
office, who failed to prove jurisdiction upon notice.

1

2. Respondents untimely moved for attorneys’ fees upon District Court
Judge Andrews’ retaliatory Solicitation, two years after the case had been
up to the Federal Circuit (18-2105) and the U.S. Supreme Court (Case 195033):
The District Court Case 16-281-RGA (D.Del.) is now under second Appeal in
Federal Circuit Case No. 20-1493, five years after the Complaint was filed in 2016,
for $148K in attorneys’ fees for Respondents not filins an answer to Dr.
Arunachalam’s Complaint, awarded to Respondents by the District Court without a
Hearing and affirmed by the Appellate Court which breached its solemn oath of
office and failed to prove jurisdiction upon notice, both courts’ void Orders are
answers to the Complaint, making both courts defacto Defendants in this Case with
NO Defendant, NO Answer, NO Hearing, only the Judges’ void Orders without a
Hearing, after denying Dr. Arunachalam access to the courts.
3. This Court did not find sanctionable the elder Dr. Arunachalam fighting
for her property rights and Constitutional rights in the earlier Appeal Case
18-2105.
This court did not sanction Dr. Arunachalam for her challenges to the courts’
standing and jurisdiction, not proven to date, after its breach of oaths of office.
Why now in Case 20-1493?
4. This Court failed to take Judicial Notice of its own precedent that it denied
Appellee Presidio Bank’s Motion for sanctions and attorneys’ fees in
ECF36 in Dr. Arunachalam’s Appeal in Case 19-1223 on 11/19/19:
for challenges to the courts’ jurisdiction, after its breach of oaths of office.
5. The conduct of Government officers, officials and employees violated Dr.
Arunachalam’s clearly established statutory and constitutional rights:

2

to due process and a fair hearing, by direct denial of access to the courts upon the
question of due process by hindering access to the courts or making resort to the
courts upon it difficult, expensive, hazardous, injuring an elder, disabled woman of
color, took her property without due process, entitling Dr. Arunachalam to
constitutional redress. See ALP, Vol 12, CONST. LAW, CH. VII, SEC. 1, $ 140.
Erroneous

and

Fraudulent

Decisions;

and

§

141. With

respect

to

Fundamental, Substantive, and Due Process Itself.
6. Two or more Government officials conspired to and injured, threatened,
intimidated and baselessly defamed Dr. Arunachalam, a 73-year old
disable elder woman of color, in the free exercise or enjoyment of her right
or privilege secured to her by the U.S. Constitution
to due process and a fair hearing and protection from hate crime per hate crime
laws of the U.S. They perpetuated falsehoods that the elder’s credit cards do not
work without even trying to put the transaction through, in deliberate
indifference, when she provided proof the cards worked. They maligned the elder
through False Official Statements, False Claims, False Propaganda, fabrication of
evidence, where reasonable officers should have known that they certainly could
not fabricate inculpatory evidence and that “citizens are to have a meaningful
opportunity to be heard as to their rights before they are finally deprived of
possession of property;”

suppression of evidence, tampering with the record,

tampering with evidence in violation of 18 USC §§1503, 1512; and inflicting
excessive force on a disabled elder female citizen of color in violation of the 8th

Amendment by inflicting Cruel and Unusual Punishment and hate crimes upon the
elder, sadistically and maliciously applied for the very purpose of causing harm
and caused harm, caused the elder emotional duress, physical injury, and took her
property without due process, causing the elder financial damage of at least a
trillion dollars, that in the light of pre-existing law, the unlawfulness is apparent
and where the state of the law at the time of the conduct gave the Government
Officers fair warning that their conduct was unconstitutional, blocking her from
the phone system

of the Federal Circuit, from ECF filing, and from emails,

requiring her to get leave of court to file anything at all and only by paper via
Fedex making it expensive for a disabled elder living on Social Security income to
go to Fedex during COVID, and not docketing her paper filings, striking off the
docket her Memo in Lieu of Oral Argument and material evidence and expert
Opinions from Stanford University’s Dr. Markus Covert and Dr. Jay Tenenbaum,
and amicus curiae briefs of testimonies by Daniel Brune and Fred Garcia of breach
of oaths of office by the Government officials, not even acknowledging receipt of
Fred Garcia’s amicus curiae brief, and not docketing it; the Appellate Court failed
to docket the elder’s Appeal Briefs for over 5 weeks, whereas

they gave

Respondents 4 attempts to correct their Appendix to remove the elder’s name from
their alleged Joint Appendix which the elder did not authorize; called the elder
names with no evidence of any misconduct of the citizen complying with all the
4

rules of court; all in violation of 18 U.S.C. §§241, 249; 42 U.S.C. §1983, 18
U.S.C. §242, the Civil Rights Act, injuring the elder physically, depriving the elder
of her property without due process, and by breach of oaths of office by
Government officials, leaving her with rights and no remedy, entitling the elder to
Constitutional redress. The Government officers’ deliberate indifference in a
“curbside courtroom, in which he decided who was entitled to possession, is
precisely the situation and deprivation of rights to be avoided,” where the federal
constitutional right claimed by the citizen was clearly established, where the
officers were not reasonably mistaken about the state of the law, of which a
reasonable person would have known, if a ‘reasonable public official’ would have
known that his or her actions violated clearly established law,” the U.S. Supreme
Court’s standard “would not allow the official who actually knows that he was
violating the law to escape liability for his actions, the clever and unusually wellinformed violator of constitutional rights will not evade just punishment for his
crimes, in which the Government Officers’ conduct in fact violated clearly
established law: Where the law was clearly established as here in Dr.
Arunachalam’s landmark case, the immunity defense ordinarily should fail, since a
reasonably competent public official should know the law governing his conduct.
The Government Officers acted with a motive to suppress citizen's speech; and the
subjective element required to establish constitutional tort is so extreme that every
5

conceivable set of circumstances in which this constitutional violation occurs is
clearly established to be a violation of the Constitution, that the elder has already
shown subjective deliberate indifference necessary to establish an 8th Amendment
conditions-of-confinement/restrictions/restraints claim, necessarily negates the
officers’ claim to qualified immunity, deliberate indifference requirement has been
shown by the elder,

that the Government officials had actual knowledge or

awareness, that the conduct at issue violated a clearly established constitutional
right, not entitled to qualified immunity, on the ground that case law should have
made it obvious to a reasonable official that the conduct was unconstitutional. Dr.
Arunachalam’s showing of 8th Amendment deliberate indifference automatically
negates a Government officer’s claim of qualified immunity; The citizen’s right to
due process and fair hearing was clearly established at the time of the officers’
misconduct and damage to citizen’s property. A unanimous Supreme Court in
December 2020 said in Tanzin v. Tanvir, that it is not its business to do policy and
held that damages are not only an appropriate remedy against government workers
who violate the Constitution, but that “this exact remedy has coexisted with our
constitutional system since the dawn of the Republic.” The Supreme Court in
Taylor v. Riojas ruled against the Appellate court’s decision on qualified
immunity. The Government officers hiding behind qualified immunity, and
obstructing justice and denying the elder access to the court in over a decade at the
6

very beginning of a case without a hearing, has prevented a remedy to Dr.
Arunachalam’s rights deprived in this Landmark Case for more than a decade,
more significant than Mar bury v. Madison and Brown v. Board ofEducation.
7. Judge Andrews admitted in the Court docket Respondents had the elder’s
software in the Eclipse Foundation code they distributed, without paying
her. This admission by the District Court Judge is an admission of a RICO
enterprise, yet he unlawfully dismissed the case without a hearing.
The Supreme Court ruled that violation of a federal right makes it unconstitutional
to invoke local rules to deny the elder access to the court. He adjudicated
erroneously and fraudulently without considering prima facie material evidence
and without applying Supreme Court precedents and without jurisdiction.
8. Administrative Judges McNamara and Siu had direct stock in a litigant, by
their own Disclosures.
They denied the elder access to the court and harassed her. Their Orders are void.
9. This court punished Dr. Arunachalam for fighting for her constitutional
and property rights. Such inhumane prejudice is wholly unacceptable to a
reasonable person.
The panel imposed an excessive penalty and punishment "so grossly excessive as
to amount to a deprivation of property without due process of law" as the Supreme
Court held in

Waters-Pierce Oil Co. v. Texas, 212 U.S. 86 (1909). The panel

violated the Eighth Amendment, which prohibits the federal government from
imposing “cruel and unusual punishments, including torture,” which the panel
inflicted upon Dr. Arunachalam, misapprehending her medical needs. The panel
has been unduly harsh to Dr. Arunachalam and has inflicted irreparable injury to
7

Dr. Arunachalam. The panel used administrative procedures to harass or otherwise
discourage Dr. Arunachalam with legitimate claims.
10.

No basis in law or fact to affirm: The panel did not apply any statute in

arriving at its decision to affirm. The panel’s defamatory Order damages the
patents-in-suit, the elder’s reputation without legal or factual justification, her
health and caused emotional duress and physical and financial damage. The panel
did not take cognizance, as it must, of the valid constitutional and civil rights of
Dr. Arunachalam and her right to file an appeal is her most "fundamental ... right,
because... preservative of all rights." The panel failed to provide Dr. Arunachalam
an effective remedy in striking off the docket her memorandum in lieu of oral
argument. The panel inflicted damages on Dr. Arunachalam, in evident violation
of the Due Process Clause of the Fourteenth Amendment, State Farm v. Campbell,
538 U.S. 408 (2003). The panel subjected Dr. Arunachalam to a severe
punishment, especially “torture,” given that Dr. Arunachalam has a serious medical
condition, causing her to go into a medical crisis by working long hours. The Court
violated the 7th Amendment in depriving Dr. Arunachalam of a jury trial. The
panel has improperly affirmed, in violation of many U.S. laws. Therefore, the
panel’s decision cannot stand. The panel damaged such a large amount of property
without following an established set of rules created by the legislature.
ll.Panel rehearing or en banc re-hearing is the only manifest justice:
8

The panel did not adhere to the four principles by which is determined whether a
particular punishment is cruel and unusual, as in Furman v. Georgia,
408 U.S. 238 (1972). The panel must re-consider its affirmation and the appeal
must be re-instated and its Orders ECF63, ECF64, ECF65 must be stricken.
Finally, en banc review is required if a first hearing is not reinstated or a panel
rehearing is denied because the panel’s decision, if followed, would conflict with
Supreme Court precedent with respect to its findings. En banc review is also
required because the panel’s decision is contrary to this Court’s precedent, as listed
supra.
The panel subjected Dr. Arunachalam to a severe punishment for fighting
for her constitutional and property rights, that is obviously inflicted in a wholly
arbitrary fashion, and that is patently unnecessary. The Court’s draconian action is
overbearing, and its own misfeasance, malfeasance and non-feasance have been
horrific for a decade in Dr. Arunachalam’s cases, denying her access to court in a
100 cases.
The panel imposed an Order affirming tantamount to an excessive sentence,
and failed to consider the key factor the Supreme Court outlined that were to be
considered in determining if the sentence is excessive: "the gravity of the offense
and the harshness of the penalty,” as in Solem v. Helm, 463 U.S. 277 (1983), in
which the Supreme Court held that in the circumstances of the case before it and
9

the factors to be considered, even one day in prison would be a cruel and unusual
punishment for the 'crime' of having a common cold."
The panel inflicted a punishment on Dr. Arunachalam, prohibited by the
Constitution, namely, punishing her for exercising her constitutional rights.
II.

PANEL REHEARING IS APPROPRIATE BECAUSE THE PANEL
MISAPPREHENDED THE FACTS AND INCORRECTLY USED
THOSE FACTS TO THE DECISION TO AFFIRM.
The panel misapprehended at least four essential issues that led to a manifest

injustice.
First, the panel misapprehended that Dr. Arunachalam’s Petition for Writ
of Mandamus in Supreme Court Case 20-1145 is still pending, knowing that
the Court was required to stay the case, instead rushed to rule, requiring this
Court to strike its defamatory, unconstitutional, void Orders ECF63, ECF64 and
ECF65.
Second, the panel misapprehended the individual circumstances surrounding
the totality of facts, and then misconstrued the facts and made material omissions
of the legal and factual basis of the case, regarding the Default by Respondents
in the District Court and concluded incorrectly and unconstitutionally that the
Plaintiff-Appellant should be sanctioned for fighting for her constitutional and
property rights, in this case where there was NO Answer, No Defendant, NO Trial,
NO hearing, only a Judge’s Order without jurisdiction.
10

Third, the panel misapprehended and misapplied the facts. These
misapprehensions are grounded in the Court’s material omissions of the legal and
factual basis of the case, and its deliberate indifference and its blocking access to
the courts for the elder.
Fourth, the Panel overlooked recent Supreme Court rulings in Tanzin v.
Tanvir and Taylor v. Riojas, that Government Officials are not protected by
absolute immunity when they violate the Constitution.
The Court’s omissions in ECF64 are unfounded in fact or the law, causing
the panel to misapprehend and misperceive the totality of facts surrounding
Plaintiff-Appellant’s

individual

circumstances,

and

misconstruing

Dr.

Arunachalam’s concerted effort to defend her constitutional and property rights.
The panel is silent, evidently unsympathetic to her verified medical needs, and in
deliberate indifference.
A.The Panel Misapprehended that the Petition for Writ of Mandamus in
Supreme Court Case 20-1145 is still pending, knowing that the Court was
required to stay the case, instead rushed to rule, requiring this Court to
strike its defamatory, unconstitutional, void Orders ECF63, ECF64 and
ECF65.
A fundamental misapprehension of the panel was that the Court rushed to affirm,
when it was required to stay the Case when the Mandamus is pending in the
Supreme Court in Case 20-1145. Despite the Court’s material omissions of the
legal andfactual basis of the case, the Court wrote an Answer for the Respondents
under color of an Order ECF64 and argued a fabricated circumstance based solely
11

on material omissions. The panel affirmed the unsubstantiated fabrication by itself
and by the District Court. As to this outcome, Dr. Arunachalam argued the totality
of circumstances. The panel never reconciled this fundamental contradiction. As
such, hearing or rehearing is required to reconcile the panel’s misapprehension
regarding Dr. Arunachalam’s totality of circumstances and context findings of fact.
Affirmation must be reversed, the Order stricken and the appeal reinstated.
B.

The Panel Misapprehended and Misconstrued and Materially Omitted
the Fact that Respondents were in Default in the District Court.
The panel did not appreciate the factual predicate, and the issues involved in

the case when the panel overlooked Dr. Arunachalam is the “prevailing party”
even by the District Court’s procedurally foul process.
C.

The Panel Did Not Rely on the Totality of Circumstances and Facts, in
deliberate indifference, and blocked access to the Court to the elder
inventor of the Internet of Things (IoT) - Web Apps displayed on a
Web browser, from which the Government and Respondents unjustly
enriched themselves in the order of trillions of dollars, without paying.

The Federal Circuit oppressed the disabled elder woman of color, by blocking the
court’s phone system from the elder, taking away ECF filing, no emails to the
court, requiring her to get leave of court to file anything at all and only by paper
via Fedex making it expensive for a disabled elder living on Social Security
income to

go to Fedex during COVID, and not docketing her paper filings,

striking off the docket her Memo in Lieu of Oral Argument and material evidence
and expert Opinions from Stanford University’s Dr. Markus Covert and Dr. Jay
12

Tenenbaum, and amicus curiae briefs of testimonies by Daniel Brune and Fred
Garcia of breach of oaths of office by the Government officials, not even
acknowledging receipt of Fred Garcia’s amicus curiae brief, and not docketing it;
the Appellate Court failed to docket the elder’s Appeal Briefs for over 5 weeks,
whereas they gave Respondents 4 attempts to correct their Appendix to remove
the elder’s name from their alleged Joint Appendix which the elder did not
authorize; called the elder names with no evidence of any misconduct on the
citizen complying with all the rules of court; all in violation of 18 U.S.C. §§241,
249; 42 U.S.C. §1983, 18 U.S.C. §242, the Civil Rights Act, injuring the elder
physically, depriving the elder of her property without due process, and by breach
of oaths of office by Government officials, leaving her with rights and no remedy,
entitling the elder to Constitutional redress. The Government officers’ deliberate
indifference in a “curbside courtroom, in which he decided who was entitled to
possession, is precisely the situation and deprivation of rights to be avoided,”
where the federal constitutional right claimed by the citizen

was clearly

established, where the officers were not reasonably mistaken about the state of the
law, of which a reasonable person would have known, if a ‘reasonable public
official’ would have known that his or her actions violated clearly established
law,” the U.S. Supreme Court’s standard “would not allow the official who
actually knows that he was violating the law to escape liability for his actions, the
13

clever and unusually well-informed violator of constitutional rights will not evade
just punishment for his crimes, in which the Government Officers’ conduct in fact
violated clearly established law: Where the law was clearly established as here in
Dr. Arunachalam’s landmark case, the immunity defense ordinarily should fail,
since a reasonably competent public official should know the law governing his
conduct.
D.

The Panel Misapprehended and overlooked recent Supreme Court
rulings in Tanzin v. Tanvir and Taylor v. Riojas, that Government
Officials are not protected by absolute immunity when they violate the
Constitution.
Recent Supreme Court rulings in Taylor v. Riojas, 592 U.S. __(2020) in U.S.
Supreme Court Case No. 19-1261; and Tanzin v. Tanvir, U.S. Supreme Court Case
No. 19-71, 592 U.S.__(2020), the Supreme Court held that damages are not only
an appropriate remedy against government workers who violate the Constitution,
but that “this exact remedy has coexisted with our constitutional system since the
dawn of the Republic.” The case has disturbing facts that this Court affirmed the
District Court’s Order granting attorneys’ fees of $148K to Respondents for being
in Default and punishing a disabled elder for the Courts’ own malfeasance,
misfeasance and non-feasance. All of which warrant that this Court strike its
defamatory, unconstitutional void Orders ECF63, ECF64 and ECF65.

14

III.

ENBANCREVIEW IS NECESSARY TO RECONCILE THE PANEL
DECISION’S CONFLICT WITH SUPREME COURT DECISIONS
AND THIS COURT PRECEDENT.

En banc review is required if panel hearing or rehearing is denied because the
panel’s decision, if followed, will conflict with the Supreme Court’s precedent:
As discussed supra, the panel’s decision is arbitrary and unconstitutional,
permitting it to distort to whatever theory it deems desirable would promote abuse
of process and unjust results, in violation of Supreme Court precedent. The panel
exceeded its limit in inflicting the unusual and cruel punishment under the specific
context of the situation, violating the "cruel and unusual punishments" clause.
The panel’s "infliction of cruel and unusual punishment [is] in violation of the
Eighth and Fourteenth Amendments," as the Supreme Court held in Robinson v.
California, 370 U.S. 660 (1962). The panel violated the standard set by the U. S.
Supreme Court “that a punishment would be cruel and unusual [,if] it was too
severe for the alleged violation” of ..., [if] it was arbitrary, if it offended society's
sense of justice, or if it was not more effective than a less severe penalty. Furman
v. Georgia, supra; Weems v. United States, supra; Solem v. Helm, supra.
1. It Is The Elder’s Fundamental Right To Challenge Jurisdiction, When The
Court Had Lost It By Breaching Its Oath Of Office.
Fundamental guarantees apply to rights as well as procedure; and, they apply to all
departments of government.

15

CONCLUSION: For at least the above reasons, the Court must grant the
combined petition for panel re-hearing and petition for en banc rehearing; strike its
defamatoiy Orders ECF63, ECF64 and ECF65; re-instate the appeal; grant Dr.
Arunachalam access to the court; reinstate her patents; and sanction those Officers
who have violated the Constitution and injured Dr. Arunachalam by hate crime and
defamation.
March 11, 2021

Respectfully submitted,

222 Stanford Avenue,
Menlo Park, CA 94025
650.690.0995, laks22002@yahoo.com

Self-Represented Plaintiff-Appellant,
Dr. Lakshmi Arunachalam

16

VERIFICATION
In accordance with 28 U.S.C. Section 1746,1 declare under penalty of peijury that
the foregoing is true and correct based upon my personal knowledge.

Dr. Lakshmi Arunachalam, a woman
Self-Represented Appellant
Executed on March 11, 2021
222 Stanford Ave,
Menlo Park, CA 94025
650 690 0995
laks22002@yahoo.com

17

CERTIFICATE OF COMPLIANCE WITH FRAP 32(a)(7)(B), 32(g)
The undersigned hereby certifies that this brief complies with the typevolume limitation of Federal Rules of Appellate Procedure 32(a)(7)(B), 32(g).
1.

The brief contains 3747 words, excluding the parts of the brief exempted by
Federal Rule of Appellate Procedure 32(a)(7)(B)(iii), 32(g).

2.

The brief has been prepared in a proportionally spaced typeface using
Microsoft Word in 14 point Times New Roman font.

March 11, 2021

Respectfully submitted,
i
/,

Dr. Lakshmi Arunachalam, a woman,
222 Stanford Avenue, Menlo Park, CA 94025
Tel: 650.690.0995;Email: laks22002@vahoo.com
Dr. Lakshmi Arunachalam, a woman,
Self-represented Appellant

18

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Dr. Lakshmi Arunachalam
v.
INTERNATIONAL BUSINESS MACHINES CORPORATION,
SAP AMERICA, INC.,
JPMORGAN CHASE & CO.,
No. 2020-1493
CERTIFICATE OF SERVICE
The undersigned hereby certifies that on March 11, 2021, an original and three
copies of “Dr. Lakshmi Arunachalam’s Combined Petition For Panel Rehearing
And Petition For En Banc Rehearing” and Addendum of Court Orders,
Verification, and Certificate of Compliance were submitted to Fedex to deliver the
package on the morning of March 12, 2021 for filing to:
Clerk of Court, United States Court of Appeals for the Federal Circuit
717 Madison Place, N.W., Washington, DC 20439.
On the same date, the foregoing was served upon counsel for Defendant-Appellees,
by depositing two copies of the Brief and Exhibits with the U.S. Post Office via
First Class and/or via email to the party’s Counsel as follows:
SAP America, Inc.;
Joseph M Beauchamp, Jones Day,
717 Texas Ave, Ste 3300, Houston, TX 77002;
832-239-3939; jbeauchamp@jonesday.com.
Counsel for SAP America, Inc.;
JPMorgan Chase and Company;
Doug Nemec, Skadden Arps Slate Meagher and Flom, LLP,
Four Times Square, New York, NY 10036;
(212) 735-2419; Douglas.Nemec@skadden.com;
Counsel for JPMorgan Chase & Co;
IBM;
Kevin James Culligan, Maynard, Cooper & Gale, P.C.; 551 Fifth Avenue, Suite
2000; New York, NY 10176;
646-609-9282; kculligan@maynardcooper.com;
Counselfor IBM.
19

March 11, 2021

Respectfully submitted,

Dr. Lakshmi Arunachalam, a woman,
222 Stanford Avenue, Menlo Park, CA 94025
Tel: 650.690.0995;Email: laks22002@vahoo.com
Dr. Lakshmi Arunachalam, a woman,
Self-Represented Appellant

ADDENDUM: Court Orders ECF64 and ECF 65

20

18

App. 4a:
Petitioner Dr. Lakshmi Arunachalam’s Motion to
Strike Defamatory Orders ECF 64, ECF 65 (3/11/21)

2020- 1493

In The

UNITED STATES COURT OF APPEALS
For The Federal Circuit

Dr. Lakshmi Arunachalam,
a woman,
v.
INTERNATIONAL BUSINESS MACHINES CORPORATION,
SAP AMERICA, INC.,
JPMORGAN CHASE & CO.,
Defendants-Appellees,
DOES 1-100,
Defendants,

Appeal from the United States District Court for the District of Delaware
in Case No. l:16-cv-281-RGA. Judge Richard G. Andrews

Dr. Lakshmi Arunachalam’s MOTION TO STRIKE ECFs 63,64, 65, 55, 53,
AND OTHERS AND ALL OF APPELLEES’ FILINGS, AND TO CORRECT
THE TAMPERED RECORD/EVIDENCE.
March 11,2021

Dr. Lakshmi Arunachalam, a woman,
222 Stanford Ave, Menlo Park, CA 94025
Tel: 650.690.0995; Laks22002@yahoo.com
Dr. Lakshmi Arunachalam, a woman,
Self-Represented Appellant

l

TABLE OF CONTENTS

TABLE OF AUTHORITIES

in

STATUTES

,vi

MOTION TO STRIKE ECFs 63, 64, 65, 55, 53, AND ALL OF APPELLEES’
FILINGS, AND TO CORRECT THE TAMPERED RECORD/EVIDENCE...

1

CONCLUSION

26

VERIFICATION

28

CERTIFICATE OF COMPLIANCE

29

CERTIFICATE OF SERVICE

30

EXHIBITS

li

TABLE OF AUTHORITIES
Cases:
Taylor v. Riojas,
592 U.S.__(2020) in U.S. Supreme Court Case No. 19-1261

passim

Tanzin v. Tanvir,
592 U.S. _ (2020) in U.S. Supreme Court Case No. 19-71

passim

Central Land Company v. Laidley,
150 U.S. 103 (1895)...........

25

Jordan v. Mass.,
225 U.S. 167 (1912)

25

Falls Brook Irrigation District v. Bradley,
164 U.S. 167-70(1896).................

25

Louisville & Nashville Railway Co. v. Kentucky,
183 U.S. 516(1902).................................

25

C.B. & Q. Railway v. Babcock,
204 U.S. 585 (1907).....

25

Rhode Island v. Massachusetts,
37 U.S. 657,718(1838).

25

Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki Co.,
535 U.S. 722 (2002)............................................

25

Kumar v. Ovonic Battery Co., Inc. And Energy Conversion Devices, Inc.,
Fed. Cir. 02-1551, -1574, 03-1091 (2003);
351 F.3d 1364, 1368, 69. (2004).....................................................

25

Elliott v. Piersol,
26 U.S. 328,240(1828)

25

Scheuer v. Rhodes,
ill

416 U.S. 232, 94 S. Ct. 1683, 1687 (1974)
Cooper v. Aaron,
358 U.S. 1 (1958)

25

25

U.S. v. Will,
449 U.S. 200, 216, 101 S.Ct. 471, 66 L. Ed. 2d. 392, 406 (1980)......... 25
Cohens v. Virginia,
19 US. 264(1821)

.25

Brooks v. Yawkey,
200 F. 2d 633 (1953)

passim

Stanardv. Olesen,
74 S. Ct. 768 (1954)

.25

Trustees ofDartmouth College v. Woodward,
17 U.S. 518(1819)............................. .

25

Grant v. Raymond,
31 U.S. 218 (1832)

25

U.S. v. American Bell Telephone Company,
167 U.S. 224(1897).........................

25

Fletcher v. Peck,
10 U.S. 87(1810)

25

Arunachalam v. Lyft,
S. Ct. 19-8029 (2019)

26

Ableman v. Booth,
62 U.S. 524(1859)

26

Sterling v. Constantin,
287 U.S. 397(1932)

26

U.S. v. Burr,
25 F. Cas. 55, 161 (CCD, Va. No. 14693)

26

IV

Aqua Products Inc. v. Matal,
Fed Cir. Case 15-1177, October 4, 2017

26

Arthrex, Inc. v. Smith & Nephew, Inc.,
No. 2018-2140, slip op. (Fed. Cir. Oct. 31, 2019)

26

Virnetx Inc. v. Cisco Systems and USPTO (intervenor)
Fed. Cir. 5/13/2020...............................................

26

Cherrington v. Erie Ins. Property and Cas. Co.,
75 S.E. 2d. 508, 513 (W. Va, 2013)........

26

Brown v. Culpepper,
559 F.2d 274, 278 (5th Cir. 1977)

26

Bradley v. Richmond School Board,
416 U.S. 696, 723 (1974)......

26

Hensley v. Eckerhart,
461 U.S. 424, 433 (1983)

26

Texas State Teachers Association v. Garland Independent School District,
489 U.S. 782, 791 (1989).......................................................................

26

Farrar v. Hobby,
506 U.S. 103 (1992)

26

Blum v. Stenson,
465 U.S. 886, 898-900 (1984)

26

Fleischmann v. Maier Brewing Co.,
386 U.S. 714,718(1967)......

26

Pence v Langdon,
99 US 578(1878)

26

v

Bivens v. Six Unknown Fed. Narcotics Agents,
403 U. S. 388 (1971).............................

26

Cohens v. Virginia,
19 U.S. 6 Wheat. 264, 404 (1821)

26

Waters-Pierce Oil Co. v. Texas,
212 U.S. 86 (1909).........

12, 26

State Farm v. Campbell,
538 U.S. 408 (2003)

26, 13

Robinson v. California,
370 U.S. 660 (1962)

26, 20

Furman v. Georgia,
408 U.S. 238 (1972)

.passim

Weems v. United States,
217 U.S. 349(1910)

26, 20,

Solem v. Helm,
463 U.S. 277 (1983)

26, 20

Statutes:
First Amendment

.23

Due Process Clause of the Fourteenth Amendment

13

Eighth Amendment

passim

Fourteenth Amendment

passim

18 USC §§1503, 1512

8

18U.S.C. §§241,249

9

42 U.S.C. §1983

9
vi

18U.S.C. §242

f•

9
9

Civil Rights Act

Vll

MOTION TO STRIKE ECFs 63, 64, 65, 55, 53, AND ALL OF APPELLEES’
FILINGS, AND TO CORRECT THE TAMPERED RECORD/EVIDENCE
Self-Represented

Plaintiff-Appellant,

Dr.

Lakshmi

Arunachalam

(“Dr.

Arunachalam”), hereby, files this Motion to Strike ECFs 64,65, 63, 53, 55, 61, 59,
24, 25, 28, 30, 31, 32, 34, 46, 35, 36, 37 and 39; and to correct the tampered
record/evidence — to reinstate

the Court-stricken ECFs 20 (which is Dr.

Arunachalam’s Opening Appeal Brief and Reply Brief and Appendix), 60, 62; and
to reinstate the original titles of Dr. Arunachalam’s filings in the improperly
captioned docket entries ECFs 41, 42, 43, 44, 45, 48, 54 and Reinstate the
Modified Entries ECFs 57, 58

which are respectfully requested, for good cause

showing.
1. The Court rushed to issue Orders ECF64 and ECF65, knowing it was
required to stay this case while Dr. Arunachalam’s Petition for Writ of
Mandamus in Supreme Court Case 20-1145 from the instant case 20-1493
is still pending.
This Court must immediately strike its defamatory, unconstitutional and void
Orders ECF64 and ECF65.
2. Both the District Court and this Court have No Proven Jurisdiction.
This Court was put on notice to prove jurisdiction in 2017, after it lost its
jurisdiction upon breaching its oaths of office, and has failed to prove jurisdiction.
It has no jurisdiction to rule, and all of this Court’s Orders in this case are void and

1

must be stricken. This Court must strike its Order ECF 64 and enter a new and
different Order.
3. Judge Andrews voluntarily admitted buying stock in a litigant in the case
and also breached his solemn oath of office.
Judge Andrews was put on notice to prove jurisdiction at least as early as 2014,
and he failed to do so, even after his voluntary admission that he bought direct
stock in Appellee, JPMorgan Chase & Co. during the pendency of that case 12282-RGA (D.Del.) and lost subject matter jurisdiction in ALL of Dr.
Arunachalam’s cases. He was again put on notice to prove jurisdiction when he
breached his oath of office. He repeatedly failed to prove jurisdiction. All his
Orders are void in Dr. Arunachalam’s cases. The Appellate Court must strike all of
Judge Andrews’ Orders in the District Court.
4. Appellees have no status to respond to the Appeal, after being in default in
the District Court. Hence all of Appellees’ filings in this Appeal must be
stricken.
The Appellees were in default in the District Court — failed to file an
Answer to Dr. Arunachalam’s Complaint, and have no status to respond to the
AppealV All of Appellees’ filings in this case must, hence, be stricken. Why did
Judge Andrews Order the Appellees to default without following proper
procedure? The Appellees and Judge Andrews knew that if they do not answer the
Complaint, they are in default. Dr. Arunachalam is the prevailing party. Appellees
defaulted, so they lost in the District Court Case 16-281-RGA (D.Del.). This
2

Appellate Court affirming the District Court’s Order granting Appellees the
untimely Motion for Attorneys* fees of $148K after being in default

upon

retaliatory Solicitation by Judge Andrews, is abnormal and prejudicial to Dr.
Arunachalam’s rights.
5. The Court’s Orders ECF 53 and 55 requiring Dr. Arunachalam to file a
motion for leave to file any paper is against the law and violates Dr.
Arunachalam’s Constitutional right to access to the Court upon the
question of due process itself and frustrates the proceedings and must be
stricken.
Orders ECFs 53 and 55 are Orders requiring Dr. Arunachalam to file a Motion for
Leave to File any paper, are unlawful, frustrate the proceedings and are void and
must be stricken. The Court’s Orders are all void, as the Court has not proven
jurisdiction upon challenge.
6. Legal Chicanery by the Court in Deliberate Indifference, tampering with
the record.
This Appellate Court first docketed Dr. Arunachalam’s ECF60 Memorandum in
Lieu of Oral Argument, which the Court had authorized Dr. Arunachalam to file in
its Order ECF56 and then had ECF60 stricken without giving it to the Ruling
Panel for consideration before the Panel affirmed the District Court’s award of
Attorneys’ fees of $148K to Appellees for being in default. Dr. Arunachalam filed
it again and moved in ECF62 to docket her Memorandum in Lieu of Oral
Argument. The Court, in legal chicanery, issued Order ECF63 which denied her
Motion to re-docket Dr. Arunachalam’s Memorandum in Lieu of Oral Argument
3

which it had earlier authorized ih feCF56 and suppressed material evidence in
Expert Opinions by Stanford University’s Dr. Markus Covert, and by Dr. Jay
Tenenbaum, and Amicus Curiae briefs by Daniel Brune and by Fred Garcia
providing witness testimonies of breach of oaths of office by Government officers.
The Court even failed to acknowledge receipt of Fred Garcia’s Amicus Curiae
brief and failed to docket it. Fedex has provided proof that Fred Garcia’s Amicus
Curiae brief was delivered to the Federal Circuit. See Exhibits of all 5 documents.
7. The Court’s Orders ECF64 and ECF65 are collaterally estopped by this
Court’s own precedents not awarding attorneys’ fees or sanctions in the
earlier Appeal 18-2105 and denying Appellee Presidio Bank’s Motion for
Sanctions and Attorneys’ Fees in Case 19-1223 in this Court. The Court
did not find nor could it proye any misconduct on the part of Dr.
Arunachalam for fighting for her property rights and Constitutional
rights.
But affirmed the award of attorneys’ fees of $148K falsely alleging misconduct on
the part of Dr. Arunachalam providing no evidence of such, for fighting for her
property and constitutional rights. The Court affirmed, covering up their own and
the District Court’s misconduct, malfeasance, misfeasance and non-feasance and
breach of oaths of office and violation of civil and criminal laws and not applying
the Mandated Prohibition declared by Chief Justice Marshall in Dartmouth
College and Fletcher v. Peck that a patent grant is a contract that cannot be
repudiated by the highest authority. The Court’s Orders ECF64 and ECF65 are
repugnant to the Constitution and impairs the obligation of Contract with Dr.
Arunachalam, the inventor of the Internet of Things (IoT)- Web Apps displayed on
4

a Web browser and violates the Contract Clause, Separation of Powers and
Appointments Clauses of the Constitution.
8. Why is the Court doing this and engaging in hate crime against an elder
disabled female inventor of color?
The Court knows why? The State of the Union is to acknowledge Dartmouth
College and Fletcher is to admit to the decades’ long fraud perpetrated by the
USPTO and this Court in a criminal enterprise against inventors.
9. Relief Sought:
i. This Court must strike its Orders ECF64 and ECF65, ECF53 and ECF55
and all its Orders, as the Court has not proven jurisdiction upon notice, after
breaching its oath of office, and correct the tampered record by reinstating
the titles of the documents as filed by Dr. Arunachalam and reinstate the
Court-stricken ECFs 20, 60, 62.
ii. The Appellees are not entitled to fees or costs from the District Court Case
nor this Appeal.
iii. The Court must enforce Dartmouth College and Fletcher.
iv. The Court must re-instate all of Dr. Arunachalam’s patents.
v. The Court must Order the Appellees to pay the royalties from the use of Dr.
Arunachalam’s patents from which they have unjustly enriched themselves,
and injured Dr. Arunachalam, financially, physically and subjected her to
emotional duress, aided and abetted the hate crime by Government officers.
5

RES ACCENDENTLUMINA REBUS
ONE THING THROWS LIGHT UPON OTHERS
I. THIS COURT CALLING A DISABLED ELDER WOMAN OF COLOR,
NAMES IN ITS ECF64 ORDER DOES NOT DETRACT FROM THIS
COURT’S MATERIAL OMISSIONS OF THE LEGAL AND FACTUAL
BASIS OF THE CASE. NAMELY:
1. Respondents IBM, SAP and JPMorgan Chase & Co. were in Default. They
did not file an answer to Dr. Arunachalam’s Complaint filed in 2016 in 16281-RGA (D.Del.).
This case never had a Defendant. There was never a trial. The Complaint is still
waiting for an Answer in the District Court.
The ONE THING here is there is NO Defendant, NO Answer, NO Hearing, NO
trial, only a Judee’s Order without a Hearins from a Judge without jurisdiction
who held direct stock in a litigant in the case and breached his solemn oath of
office, who failed to prove jurisdiction upon notice.
2. Respondents untimely moved for attorneys’ fees upon District Court Judge
Andrews’ retaliatory Solicitation, two years after the case had been up to
the Federal Circuit 18-2105 and U.S. Supreme Court 19-5033):
The District Court Case 16-281-RGA (D.Del.) is now under second Appeal in
Federal Circuit Case No. 20-1493, five years after the Complaint was filed in 2016,
for $148K in attorneys’ fees for Respondents not filins an answer to Dr.
Arunachalam’s Complaint. awarded to Respondents by the District Court without a
Hearing and affirmed by the Appellate Court which breached its solemn oath of
office and failed to prove jurisdiction upon notice, both courts’ void Orders are
answers to the Complaint, making both courts defacto Defendants in this Case with
6

NO Defendant, NO Answer, NO Hearing, only the Judges’ yoid Orders without a
Hearing, after denying Dr. Arunachalam access to the courts.
3. This Court did not find sanctionable the elder Dr. Arunachalam fighting
for her property rights and Constitutional rights in the earlier Appeal Case
18-2105.
This court did not sanction Dr. Arunachalam for her challenges to the courts’
standing and jurisdiction, not proven to date, after its breach of oaths of office.
Why now in Case 20-1493?
4. This Court’s Erroneous and Fraudulent and Void Orders are Collaterally
Estopped by its own precedent that it denied Appellee Presidio Bank’s
Motion for sanctions and attorneys’ fees in ECF36 in Dr. Arunachalam’s
Appeal in Case 19-1223 on 11/19/19:
for challenges to the courts’ jurisdiction, after its breach of oaths of office.
5. The conduct of Government officers, officials and employees violated Dr.
Arunachalam’s clearly established statutory and constitutional rights:
to due process and a fair hearing, by direct denial of access to the courts upon the
question of due process by hindering access to the courts or making resort to the
courts upon it difficult, expensive, hazardous, injuring an elder, disabled woman of
color, took her property without due process, entitling Dr. Arunachalam to
constitutional redress. See ALP, Vol 12, CONST. LAW, CH. VII, SEC. 1, § 140.
Erroneous and Fraudulent Decisions; and §141. With respect to Fundamental,
Substantive, and Due Process Itself.
6. Two or more Government officials conspired to and injured, threatened,
intimidated and baselessly defamed Dr. Arunachalam, a 73-year old
7

disable elder woman of color, in the free exercise or enjoyment of her right
or privilege secured to her by the U.S. Constitution
to due process and a fair hearing and protection from hate crime per hate crime
laws of the U.S. They perpetuated falsehoods that the elder’s credit cards do not
work without even trying to put the transaction through, in deliberate
indifference, when she provided proof the cards worked. They maligned the elder
through False Official Statements, False Claims, False Propaganda, fabrication of
evidence, where reasonable officers should have known that they certainly could
not fabricate inculpatory evidence and that “citizens are to have a meaningful
opportunity to be heard as to their rights before they are finally deprived of
possession of property;”

suppression of evidence, tampering with the record,

tampering with evidence in violation of 18 USC §§1503, 1512; and inflicting
excessive force on a disabled elder female citizen of color in violation of the 8th
Amendment by inflicting Cruel and Unusual Punishment and hate crimes upon the
elder, sadistically and maliciously applied for the very purpose of causing harm
and caused harm, caused the elder emotional duress, physical injury, and took her
property without due process, causing the elder financial damage of at least a
trillion dollars, that in the light of pre-existing law, the unlawfulness is apparent
and where the state of the law at the time of the conduct gave the Government
Officers fair warning that their conduct was unconstitutional, blocking her from
the phone system

of the Federal Circuit, from ECF filing, and from emails,

requiring her to get leave of court to file anything at all and only by paper via
Fedex making it expensive for a disabled elder living on Social Security income to
go to Fedex during COVED, and not docketing her paper filings, striking off the
docket her Memo in Lieu of Oral Argument and material evidence and expert
Opinions from Stanford University’s Dr. Markus Covert and Dr. Jay Tenenbaum,
and amicus curiae briefs of testimonies by Daniel Brune and Fred Garcia of breach
of oaths of office by the Government officials, not even acknowledging receipt of
Fred Garcia’s amicus curiae brief, and not docketing it; the Appellate Court failed
to docket the elder’s Appeal Briefs for over 5 weeks, whereas

they gave

Respondents 4 attempts to correct their Appendix to remove the elder’s name from
their alleged Joint Appendix which the elder did not authorize; called the elder
names with no evidence of any misconduct of the citizen complying with all the
rules of court; all in violation of 18 U.S.C. §§241, 249; 42 U.S.C. §1983, 18
U.S.C. §242, the Civil Rights Act, injuring the elder physically, depriving the elder
of her property without due process, and by breach of oaths of office by
Government officials, leaving her with rights and no remedy, entitling the elder to
Constitutional redress. The Government officers’ deliberate indifference in a
“curbside courtroom, in which he decided who was entitled to possession, is
precisely the situation and deprivation of rights to be avoided,” where the federal
constitutional right claimed by the citizen was clearly established, where the
9

officers were not reasonably mistaken about the state of the law, of which a
reasonable person would have known, if a ‘reasonable public official’ would have
known that his or her actions violated clearly established law,” the U.S. Supreme
Court’s standard “would not allow the official who actually knows that he was
violating the law to escape liability for his actions, the clever and unusually wellinformed violator of constitutional rights will not evade just punishment for his
crimes, in which the Government Officers’ conduct in fact violated clearly
established law: Where the law was clearly established as here in Dr.
Arunachalam’s landmark case, the immunity defense ordinarily should fail, since a
reasonably competent public official should know the law governing his conduct.
The Government Officers acted with a motive to suppress citizen's speech; and the
subjective element required to establish constitutional tort is so extreme that every
conceivable set of circumstances in which this constitutional violation occurs is
clearly established to be a violation of the Constitution, that the elder has already
shown subjective deliberate indifference necessary to establish an 8th Amendment
conditions-of-confinement/restrictions/restraints claim, necessarily negates the
officers’ claim to qualified immunity, deliberate indifference requirement has been
shown by the elder,

that the Government officials had actual knowledge or

awareness, that the conduct at issue violated a clearly established constitutional
right, not entitled to qualified immunity, on the ground that case law should have
10

made it obvious to a reasonable official that the conduct was unconstitutional. Dr.
Arunachalam’s showing of 8th Amendment deliberate indifference automatically
negates a Government officer’s claim of qualified immunity; The citizen’s right to
due process and fair hearing was clearly established at the time of the officers’
misconduct and damage to citizen’s property. A unanimous Supreme Court in
December 2020 said in Tanzin v. Tanvir, that it is not its business to do policy and
held that damages are not only an appropriate remedy against government workers
who violate the Constitution, but that “this exact remedy has coexisted with our
constitutional system since the dawn of the Republic.” The Supreme Court in
Taylor v. Riojas ruled against the Appellate court’s decision on qualified
immunity. The Government officers hiding behind qualified immunity, and
obstructing justice and denying the elder access to the court in over a decade at the
very beginning of a case without a hearing, has prevented a remedy to Dr.
Arunachalam’s rights deprived in this Landmark Case for more than a decade,
more significant than Marbury v. Madison and Brown v. Board ofEducation.
7. Judge Andrews admitted in the Court docket Respondents had the elder’s
software in the Eclipse Foundation code they distributed, without paying
her. This admission by the District Court Judge is an admission of a RICO
enterprise, yet he unlawfully dismissed the case without a hearing.
The Supreme Court ruled that violation of a federal right makes it unconstitutional
to invoke local rules to deny the elder access to the court. He adjudicated

11

erroneously and fraudulently without considering prima facie material evidence
and without applying Supreme Court precedents and without jurisdiction.
8. Administrative Judges McNamara and Siu had direct stock in a litigant, by
their own Disclosures.
They denied the elder access to the court and harassed her. Their Orders are void.
9. This court punished Dr. Arunachalam for fighting for her constitutional
and property rights. Such inhumane prejudice is wholly unacceptable to a
reasonable person.
The panel imposed an excessive penalty and punishment "so grossly excessive as
to amount to a deprivation of property without due process of law" as the Supreme
Court, held in

Waters-Pierce Oil Co. v. Texas, 212 U.S. 86 (1909). The panel

violated the Eighth Amendment, which prohibits the federal government from
imposing “cruel and unusual punishments, including torture,” which the panel
inflicted upon Dr. Arunachalam, misapprehending her medical needs. The panel
has been unduly harsh to Dr. Arunachalam and has inflicted irreparable injury to
Dr. Arunachalam. The panel used administrative procedures to harass or otherwise
discourage Dr. Arunachalam with legitimate claims.
10.

No basis in law or fact to affirm: The panel did not apply any statute in

arriving at its decision to affirm. The panel’s defamatory Order damages the
patents-in-suit, the elder’s reputation without legal or factual justification, her
health and caused emotional duress and physical and financial damage. The panel
did not take cognizance, as it must, of the valid constitutional and civil rights of
12

Dr. Arunachalam and her right to file an appeal is her most "fundamental ... right,
because... preservative of all rights." The panel failed to provide Dr. Arunachalam
an effective remedy in striking off the docket her memorandum in lieu of oral
argument. The panel inflicted damages on Dr. Arunachalam, in evident violation
of the Due Process Clause of the Fourteenth Amendment, State Farm v. Campbell,
538 U.S. 408 (2003). The panel subjected Dr. Arunachalam to a severe
punishment, especially “torture,” given that Dr. Arunachalam has a serious medical
condition, causing her to go into a medical crisis by working long hours. The Court
violated the 7th Amendment in depriving Dr. Arunachalam of a jury trial. The
panel has improperly affirmed, in violation of many U.S. laws. Therefore, the
panel’s decision cannot stand. The panel damaged such a large amount of property
without following an established set of rules created by the legislature.
11.The Court must Strike the defamatory Orders ECF 64, 65,55,53
immediately and all other Orders:
The panel did not adhere to the four principles by which is determined whether a
particular punishment is cruel and unusual, as in Furman v. Georgia,
408 U.S. 238 (1972). The panel must re-consider its affirmation and the appeal
must be re-instated and its Orders ECF63, ECF64, ECF65 must be stricken. The
panel’s decision, if followed, would conflict with Supreme Court precedent with
respect to its findings.

13

The panel subjected Dr. Arunachalam to a severe punishment for fighting for her
constitutional and property rights, that is obviously inflicted in a wholly arbitrary
fashion, and that is patently unnecessary. The Court’s draconian action is
overbearing, and its own misfeasance, malfeasance and non-feasance have been
horrific for a decade in Dr. Arunachalam’s cases, denying her access to court in a
100 cases. So Dr. Arunachalam has no Appellate Court. So does the Supreme
Court have to become a court of original jurisdiction for Dr. Arunachalam.
The panel imposed an Order affirming tantamount to an excessive sentence,
and failed to consider the key factor the Supreme Court outlined that were to be
considered in determining if the sentence is excessive: "the gravity of the offense
and the harshness of the penalty,” as in Solem v. Helm, 463 U.S. 277 (1983), in
which the Supreme Court held that in the circumstances of the case before it and
the factors to be considered, even one day in prison would be a cruel and unusual
punishment for the 'crime' of having a common cold."
The panel inflicted a punishment on Dr. Arunachalam, prohibited by the
Constitution, namely, punishing her for exercising her constitutional rights.
II.

THE
PANEL
MISAPPREHENDED
THE
FACTS
AND
INCORRECTLY USED THOSE FACTS TO THE DECISION TO
AFFIRM.

The panel misapprehended at least four essential issues that led to a manifest
injustice.
14

First, the panel misapprehended that Dr. Arunachalam’s Petition for Writ of
Mandamus in Supreme Court Case 20-1145 is still pending, knowing that the
Court was required to stay the case, instead rushed to rule, requiring this Court
to strike its defamatory, unconstitutional, void Orders ECF63, ECF64 and ECF65.
Second, the panel misapprehended the individual circumstances surrounding
the totality of facts, and then misconstrued the facts and made material omissions
of the legal and factual basis of the case, regarding the Default by Respondents
in the District Court and concluded incorrectly and unconstitutionally that the
Plaintiff-Appellant should be sanctioned for fighting for her constitutional and
property rights, in this case where there was NO Answer, No Defendant, NO Trial,
NO hearing, only a Judge’s Order without jurisdiction.
Third, the panel misapprehended and misapplied the facts. These
misapprehensions are grounded in the Court’s material omissions of the legal and
factual basis of the case, and its deliberate indifference and its blocking access to
the court for the elder.
Fourth, the Panel overlooked recent Supreme Court rulings in Tanzin v.
Tanvir and Taylor v. Riojas, that Government Officials are not protected by
absolute immunity when they violate the Constitution.
The Court’s omissions in ECF64 are unfounded in fact or the law, causing
the panel to misapprehend and misperceive the totality of facts surrounding
15

Plaintiff-Appellant’s

individual

circumstances,

and

misconstruing

Dr.

Arunachalam’s concerted effort to defend her constitutional and property rights.
The panel is silent, evidently unsympathetic to her verified medical needs, and in
deliberate indifference.
A.The Panel Misapprehended that the Petition for Writ of Mandamus in
Supreme Court Case 20-1145 is still pending, knowing that the Court was
required to stay the case, instead rushed to rule, requiring this Court to
strike its defamatory, unconstitutional, void Orders ECF63, ECF64 and
ECF65.
A fundamental misapprehension of the panel was that the Court rushed to affirm,
when it was required to stay the Case when the Mandamus is pending in the
Supreme Court in Case 20-1145. Despite the Court’s material omissions of the
legal andfactual basis of the case, the Court wrote an Answer for the Respondents
under color of an Order ECF64 and argued a fabricated circumstance based solely
on material omissions. The panel affirmed the unsubstantiated fabrication by itself
and by the District Court. As to this outcome, Dr. Arunachalam argued the totality
of circumstances. The panel never reconciled this fundamental contradiction. As
such, hearing or rehearing is required to reconcile the panel’s misapprehension
regarding Dr. Arunachalam’s totality of circumstances and context findings of fact.
Affirmation must be reversed, the Order stricken and the appeal reinstated.

16

B.

The Panel Misapprehended and Misconstrued and Materially Omitted
the Fact that Respondents were in Default in the District Court.

The panel did not appreciate the factual predicate, and the issues involved in the
case when the panel overlooked Dr. Arunachalam is the “prevailing party” even by
the District Court’s procedurally foul process.
C.

The Panel Did Not Rely on the Totality of Circumstances and Facts, in
deliberate indifference, and blocked access to the Court to the elder
inventor of the Internet of Things (IoT) - Web Apps displayed on a
Web browser, from which the Government and Respondents pnjustly
enriched themselves in the order of trillions of dollars, without paying.

The Federal Circuit oppressed the disabled elder woman of color, by blocking the
court’s phone system from the elder, taking away ECF filing, no emails to the
court, requiring her to get leave of court to file anything at all and only by paper
via Fedex making it expensive for a disabled elder living on Social Security
income to

go to Fedex during COVID, and not docketing her paper filings,

striking off the docket her Memo in Lieu of Oral Argument and material evidence
and expert Opinions from Stanford University’s Dr. Markus Covert and Dr. Jay
Tenenbaum, and amicus curiae briefs of testimonies by Daniel Brune and Fred
Garcia of breach of oaths of office by the Government officials, not even
acknowledging receipt of Fred Garcia’s amicus curiae brief, and not docketing it;
the Appellate Court failed to docket the elder’s Appeal Briefs for over 5 weeks,
whereas they gave Respondents 4 attempts to correct their Appendix to remove
the elder’s name from their alleged Joint Appendix which the elder did not
17

authorize; called the elder names with no evidence of any misconduct on the
citizen complying with all the rules of court; all in violation of 18 U.S.C. §§241,
249; 42 U.S.C. §1983, 18 U.S.C. §242, the Civil Rights Act, injuring the elder
physically, depriving the elder of her property without due process, and by breach
of oaths of office by Government officials, leaving her with rights and no remedy,
entitling the elder to Constitutional redress. The Government officers’ deliberate
indifference in a “curbside courtroom, in which he decided who was entitled to
possession, is precisely the situation and deprivation of rights to be avoided,”
where the federal constitutional right claimed by the citizen

was clearly

established, where the officers were not reasonably mistaken about the state of the
law, of which a reasonable person would have known, if a ‘reasonable public
official’ would have known that his or her actions violated clearly established
law,” the U.S. Supreme Court’s standard “would not allow the official who
actually knows that he was violating the law to escape liability for his actions, the
clever and unusually well-informed violator of constitutional rights will not evade
just punishment for his crimes, in which the Government Officers’ conduct in fact
violated clearly established law: Where the law was clearly established as here in
Dr. Arunachalam’s landmark case, the immunity defense ordinarily should fail,
since a reasonably competent public official should know the law governing his
conduct.
18

D.

The Panel Misapprehended and overlooked recent Supreme Court
rulings in Tanzin v. Tanvir and Taylor v. Riojas, that Government
Officials are not protected by absolute immunity when they violate the
Constitution.
Recent Supreme Court rulings in Taylor v. Riojas, 592 U.S.__(2020) in U.S.
Supreme Court Case No. 19-1261; and Tanzin v. Tanvir, U.S. Supreme Court Case

No. 19-71, 592 U.S.__(2020), the Supreme Court held that damages are not only
an appropriate remedy against government workers who violate the Constitution,
but that “this exact remedy has coexisted with our constitutional system since the
dawn of the Republic.” The case has disturbing facts that this Court affirmed the
District Court’s Order granting attorneys’ fees of $148K to Respondents for being
in Default and punishing a disabled elder for the Courts’ own misconduct,
malfeasance, misfeasance and non-feasance. All of which warrant that this Court
strike its defamatory, unconstitutional void Orders ECF63, ECF64 and ECF65
and all its Orders and Appellees’ filings with no status.
III.

COURT’S MISCONDUCT AND ABUSE.
As discussed supra, the panel’s decision is arbitrary and unconstitutional,

permitting it to distort to whatever theory it deems desirable would promote abuse
of process and unjust results, in violation of Supreme Court precedent. The panel
exceeded its limit in inflicting the unusual and cruel punishment under the specific
context of the situation, violating

the "cruel and unusual punishments" clause.

The panel’s "infliction of cruel and unusual punishment [is] in violation of the
19

Eighth and Fourteenth Amendments," as the Supreme Court held in Robinson v.
California, 370 U.S. 660 (1962). The panel violated the standard set by the U. S.
Supreme Court “that a punishment would be cruel and unusual [,if] it was too
severe for the alleged violation” of

[if] it was arbitrary, if it offended society's

sense of justice, or if it was not more effective than a less severe penalty. Furman
v. Georgia, supra; Weems v. United States, supra’, Solem v. Helm, supra.
1. It Is The Elder’s Fundamental Right To Challenge Jurisdiction, When The
Court Had Lost It By Breaching Its Oath Of Office.
Fundamental guarantees apply to rights as well as procedure; and, they apply to all
departments of government.
2. This case is more significant than Marbury v. Madison and Brown v. Board
of Education.
This case requires answers to questions of exceptional importance, affecting
national security.
QUESTIONS PRESENTED
1. Confronted with the particularly egregious facts of this case, whether any
reasonable officer should have realized that elder victim’s conditions of denial
of access to the court offended the Constitution.
2. Whether it is unconstitutional for the Court to punish an elder, Dr. Arunachalam
for the exercise of a constitutional right.
3. Whether the Appellate Court entertaining an Order from a District Court Judge
without jurisdiction in a case where there was NO Defendant, NO answer to the
Complaint, NO case, NO trial, NO hearing and affirming the District Court’s
award of attorneys’ fees violated clearly established statutory and
constitutional rights of a citizen to due process and a fair hearing.
20

4. Where the conduct of a Government officer violated clearly established
statutory and constitutional rights of a citizen to due process and a fair hearing,
by direct denial of access to the courts upon the question of due process by
hindering access to the courts or making resort to the courts upon it difficult,
expensive, hazardous, injuring an elder, disabled woman of color, took her
property without due process, entitles the elder to constitutional redress.
5. Whether the Appellate Court can make a decision, after failing to prove
jurisdiction upon breach of oaths of office, in violation of Supreme Court
precedent that once jurisdiction is challenged, a judge cannot move one step
further without proving jurisdiction.
6. Whether the District Court can make a decision, after failing to prove
jurisdiction, after admitting to direct stock ownership in a litigant in the case
and breaching his oath of office.
RES ACCENDENTLUMINA REBUS
ONE THING THROWS LIGHT UPON OTHERS
7. If not, whether any reasonable person would conclude that the Appellate Court
entertaining a void Order without a hearing from a District Court judge without
jurisdiction, who failed to prove jurisdiction upon notice, in a case where the
ONE THING is there is NO Defendant, NO Answer to the Complaint, NO
hearing. NO trial, only a Judge’s Order without a hearing from a judge without
jurisdiction, and the District Court’s award of attorneys’ fees to the victim’s
opponents who failed to file an Answer, is not erroneous and fraudulent and
is not proof of Conspiracy Against Rights in violation of 18 USC §241 to
injure, threaten, or intimidate a person in any state, territory, or district in the
free exercise or enjoyment of any right or privilege secured to the individual by
the U.S. Constitution or the laws of the U.S. and does not constitute denial of
due process and fair hearing to a 73-year old disabled elder woman of color,
entitling her to Constitutional redress.
8. Whether a finding of 8th Amendment deliberate indifference is inconsistent
with a finding of qualified immunity, where the citizen’s right to due process
and a fair hearing, and access to the court upon the question of due process
itself was clearly established at the time of officers’ misconduct and damage to
citizen’s property.
9. Whether this Court must sanction the Government officers for violating the
Constitution and maligning an elder to cover up their own misfeasance,
21

malfeasance, nonfeasance and breaching their oaths of office and violating hate
crime laws, and committing obstruction of justice and aiding and abetting anti­
trust and conspiring to deprive the citizen of her property and have them pay
monetary damages to Dr. Arunachalam as a remedy against government
workers who violate the Constitution, where “this exact remedy has coexisted
with our constitutional system since the dawn of the Republic.”
10.Where Defendants failed to answer the Complaint, and the Appellate Court’s
void Order without jurisdiction is defacto the Answer to the Complaint making
it the defacto Defendant, any reasonable officer confronted with the particularly
egregious facts of this case, should have realized that victim’s conditions of
denial of access to the court offended the Constitution, requiring this Court to
strike it’s void Orders that maligned the elder for fighting for her constitutional
rights and property rights.
11. Whether the Federal Circuit in deceiving the Supreme Court by its material
omissions that there was never a trial nor a hearing, no Defendant, no Answer
to the Complaint, in this case since 2016, makes its Order on appeal void and
must be stricken, as the Appellate brief is a surprise, the Federal Circuit’s Order
is the defacto answer, the Federal Circuit turned into the defacto Defendant.
12. Whether it is inconsistent with the standards of the Supreme Court, where two
or more Government officials conspired to and injured, threatened, and
intimidated an elder woman of color with disabilities in the free exercise or
enjoyment of her right or privilege secured to her by the U.S. Constitution to
due process and a fair hearing and hate crime laws of the U.S.
13. Whether violating the constitutional rights to due process and fair hearing of an
elder woman of color with disabilities by direct denial of access to the courts
upon the question of due process itself, affecting interstate commerce, through
threats, intimidation, defamation, False Official Statements, tampering with
evidence, and excessive force in violation of the 8th Amendment by inflicting
hate crimes upon the elder in violation of 18 U.S.C. §§241, 249; 42 U.S.C.
§ 1983 and 18 U.S.C. §242, both enacted as part of the Civil Rights Act of 1871,
injuring the elder physically, depriving the elder of her property without due
process, and by breach of oaths of office by Government officials, entitle the
elder to Constitutional redress.
14.Whether this Court obstructing the elder from her right to Constitutional
redress, and hiding behind qualified immunity, depriving the elder of a remedy
22

for her protected rights to the obligation of Contract which cannot be impaired
by the Supreme Law of the Land, is inconsistent with the standard of the United
States Supreme Court and warrants damages as not only an appropriate remedy
against government workers who violate the Constitution, but that “this exact
remedy has coexisted with our constitutional system since the dawn of the
Republic.”
15.Whether Government officials with no jurisdiction must be sanctioned for
conspiring to violate and violating the constitutional rights to due process and
fair hearing of an elder woman of color with disabilities by direct denial of
access to the courts upon the question of due process itself, affecting interstate
commerce, through threats, intimidation, defamation, excessive force in
violation of the 8th Amendment by inflicting hate crimes upon her, affecting
interstate commerce in violation of 18 U.S.C. §§241, 249; 42 U.S.C. §1983 and
18 U.S.C. §242, the Civil Rights Act, and injuring her physically and depriving
her of her property without due process, hiding behind qualified immunity,
when there can be no right without a remedy, and entitle her to Constitutional
redress.

16. Where the conduct of a Government officer inflicting retaliatory exaction in
dishonor and without jurisdiction, violated:
The 8th Amendment Cruel and Unusual Punishment Clause and inflicted
l.
excessive force on an elder, disabled, female citizen of color;
42 U.S.C. §1983; 18 U.S.C. §242, the Civil Rights Act;
li
ill.
the First Amendment; and
iv.
clearly established statutory and constitutional rights of an elderly,
disabled female citizen of color, to due process and a fair hearing, a
neutral judge without stock in the defendant; and
her property was taken without due process;
v.
vi.
she was deprived her of liberty without due process;
vii. citizen injured through the corruption or fraud of the court or other
administrative body disposing of her case, and she is entitled to
Constitutional redress;
viii. they made final decisions upon the ultimate question of due process
which cannot be conclusively codified to any non-judicial tribunal, by
direct denial of access to the courts upon this question of due process by
hindering access to the courts or making resort to the courts upon it
difficult, expensive, hazardous, all alike violate the Constitutional
provision;
23

ix.

called her names with no evidence of any misconduct on the part of the
elder disabled female citizen complying with all the rules of court;
sadistically and maliciously applied for the very purpose of causing harm
x.
and caused harm to the elder;
xi.
that in the light of pre-existing law, the unlawfulness is apparent and
where the state of the law at the time of the conduct gave the Government
Officer fair warning that their conduct was unconstitutional;
xii.
for fabrication of evidence, where reasonable officers should have
known that they certainly could not fabricate inculpatory evidence;
xiii. and that “citizens are to have a meaningful opportunity to be heard as to
their rights before they are finally deprived of possession of property;”
xiv. suppression of evidence;
xv. tampering with evidence;
xvi. tampering with the record;
xvii. and that the officer’s “curbside courtroom, in which he decided who was
entitled to possession, is precisely the situation and deprivation of rights
to be avoided;”
xviii. where the federal constitutional right claimed by the citizen was clearly
established;
xix. where the officer was not reasonably mistaken about the state of the law;
xx. of which a reasonable person would have known;
xxi. where a ‘reasonable public official’ would have known that his or her
actions violated clearly established law;
xxii. where the Court’s standard “would not allow the official who actually
knows that he was violating the law to escape liability for his actions;”
xxiii. where the Government official’s conduct in fact violated clearly
established law and the immunity defense fails;
xxiv. where a reasonably competent public official should know the law
governing his conduct;
xxv. this Court acted with a motive to suppress citizen's speech;
xxvi. where the subjective element required to establish constitutional tort is
so extreme that every conceivable set of circumstances in which this
constitutional violation occurs is clearly established to be a violation of
the Constitution;
xxvii. where the citizen has provided a showing of subjective deliberate
indifference necessary to establish an Eighth Amendment conditions-ofconfmement/restrictions/restraints claim, which necessarily negates the
officer’s claim to qualified immunity;
xxviii. where the Government official had actual knowledge or awareness
and remained in deliberate indifference;
24

xxix. where the conduct at issue violated a clearly established constitutional
right;
xxx. The Government official is not entitled to qualified immunity, on the
ground that case law should have made it obvious to a reasonable official
that the conduct was unconstitutional;
xxxi. Where a finding of Eighth Amendment deliberate indifference is
inconsistent with a finding of qualified immunity; and,
xxxii. Where the citizen’s right to access to the Court and due process was
clearly established at the time of officers’ misconduct and damage to
citizen’s property.
The Court’s Orders must be stricken immediately as they are contrary to decisions
of the Supreme Court1 of the United States or precedents of this Court.

Taylor v. Riojas, 592 U.S.__(2020) in U.S. Supreme Court Case No. 19-1261;
Tanzin v. Tanvir, U.S. Supreme Court Case No. 19-71, 592 U.S.__ (2020);
Central Land Company v. Laidley, 150 U.S. 103 (1895);
Jordan v. Mass., 225 U.S. 167 (1912);
Falls Brook Irrigation District v. Bradley, 164 U.S. 167-70(1896);
Louisville & Nashville Railway Co. v. Kentucky, 183 U.S. 516 (1902);
C.B. & Q. Railway v. Babcock, 204 U.S. 585 (1907);
Rhode Island v. Massachusetts, 37 U.S. 657, 718 (1838);
Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722 (2002);
Kumar v. Ovonic Battery Co., Inc. And Energy Conversion Devices, Inc., Fed. Cir.
02-1551, -1574, 03-1091 (2003); 351 F.3d 1364, 1368, 69. (2004);
Elliott v. Piersol, 26 U.S. 328,240 (1828);
Scheuer v. Rhodes, 416 U.S. 232, 94 S. Ct. 1683, 1687 (1974);
Cooper v. Aaron, 358 U.S. 1 (1958);
U.S. v. Will, 449 U.S. 200, 216, 101 S.Ct. 471, 66 L. Ed. 2d. 392, 406 (1980);
Cohens v. Virginia, 19 US. 264 (1821);
Brooks v. Yawkey, 200 F. 2d 633 (1953);
Stanard v. Olesen, 74 S. Ct. 768 (1954);
Trustees ofDartmouth College v. Woodward, 17 U.S. 518 (1819);
Grant v. Raymond, 31 U.S. 218 (1832);
U.S. v. American Bell Telephone Company, 167 U.S. 224 (1897);
Fletcher v. Peck, 10 U.S. 87 (1810);
25

CONCLUSION: Wherefore, the Court must grant the Motion to Strike and to
Correct the Tampered Record/Evidence; strike its defamatory Orders ECFs 63, 64,
65, 53, 55, immediately, that have injured Dr. Arunachalam by hate crime and
defamation, and the Court’s own misconduct; grant the Relief Sought outlined on
p5 in Section 9 supra. Dr. Arunachalam is here to stay. No amount of intimidation

Arunachalam v. Lyft, 19-8029, voiding all Orders in all of Appellant’s Supreme
Court cases, for want of jurisdiction;
Ableman v. Booth, 62 U.S. 524 (1859);
Sterling v. Constantin, 287 U.S. 397 (1932);
U.S. v. Burr, 25 F. Cas. 55, 161 (CCD, Va. No. 14693);
Aqua Products Inc. v. Matal, Fed Cir. Case 15-1177, October 4, 2017;
Arthrex, Inc. v. Smith & Nephew, Inc., No. 2018-2140, slip op. (Fed. Cir.
Oct. 31, 2019);
Virnetx Inc. v. Cisco Systems and USPTO (intervenor) (Fed. Cir. 5/13/2020);
Cherrington v. Erie Ins. Property and Cas. Co., 75 S.E. 2d. 508, 513 (W. Va,
2013);
Brown v. Culpepper, 559 F.2d 274, 278 (5th Cir. 1977);
Bradley v. Richmond School Board, 416 U.S. 696, 723 (1974);
Hensley v. Eckerhart, 461 U.S. 424, 433 (1983);
Texas State Teachers Association v. Garland Independent School District, 489
U.S. 782, 791 (1989);
Farrar v. Hobby, 506 U.S. 103 (1992);
Blum v. Stenson, 465 U.S. 886, 898-900 (1984);
Fleischmann v. Maier Brewing Co., 386 U.S. 714, 718 (1967);
Pence v Langdon, 99 US 578 (1878);
Waters-Pierce Oil Co. v. Texas, 212 U.S. 86 (1909);
State Farm v. Campbell, 538 U.S. 408 (2003);
Furman v. Georgia, 408 U.S. 238 (1972);
Solem v. Helm, 463 U.S. 277 (1983);
Weems v. United States, 217 U.S. 349 (1910);
Robinson v. California, 370 U.S. 660 (1962).

26

and hate crime will deter her from fighting for her constitutional and property
rights.
March 11, 2021

Respectfully submitted,

222 Stanford Avenue,
Menlo Park, CA 94025
650.690.0995, laks22002@yahoo.com

Self-Represented Plaintiff-Appellant,
Dr. Lakshmi Arunachalam

27

VERIFICATION
In accordance with 28 U.S.C. Section 1746,1 declare under penalty of perjury that
the foregoing is true and correct based upon my personal knowledge.

Dr. Lakshmi Arunachalam, a woman
Self-Represented Appellant
Executed on March 11, 2021
222 Stanford Ave,
Menlo Park, CA 94025
650 690 0995
laks22002@yahoo.com

28

CERTIFICATE OF COMPLIANCE WITH FRAP 32(a)(7)(B), 32(g)
The undersigned hereby certifies that this brief complies with the typevolume limitation of Federal Rules of Appellate Procedure 32(a)(7)(B), 32(g).
1.

The brief contains 7129 words, excluding the parts of the brief exempted by
Federal Rule of Appellate Procedure 32(a)(7)(B)(iii), 32(g).

2.

The brief has been prepared in a proportionally spaced typeface using
Microsoft Word in 14 point Times New Roman font.

March 11, 2021

Respectfully submitted,

Dr. Lakshmi Arunachalam, a woman,
222 Stanford Avenue, Menlo Park, CA 94025
Tel: 650.690.0995;Email: laks22002@vahoo.com
Dr. Lakshmi Arunachalam, a woman,
Self-represented Appellant

29

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Dr. Lakshmi Arunachalam
v.
INTERNATIONAL BUSINESS MACHINES CORPORATION,
SAP AMERICA, INC.,
JPMORGAN CHASE & CO.,
No. 2020-1493
CERTIFICATE OF SERVICE
The undersigned hereby certifies that on March 11, 2021, an original and three
copies of the aforementioned Motion and Exhibits, Verification, and Certificate of
Compliance were submitted to Fedex to deliver the package on the morning of
March 12, 2021 for filing to:
Clerk of Court, United States Court of Appeals for the Federal Circuit
717 Madison Place, N.W., Washington, DC 20439.
On the same date, the foregoing was served upon counsel for Defendant-Appellees,
by depositing two copies of the Brief and Exhibits with the U.S. Post Office via
First Class and/or via email to the party’s Counsel as follows:
SAP America, Inc.;
Joseph M Beauchamp, Jones Day,
717 Texas Ave, Ste 3300, Houston, TX 77002;
832-239-3939; jbeauchamp@jonesday.com.
Counselfor SAP America, Inc.;
JPMorgan Chase and Company;
Doug Nemec, Skadden Arps Slate Meagher and Flom, LLP,
Four Times Square, New York, NY 10036;
(212) 735-2419; Douglas.Nemec@skadden.com;
Counsel for JPMorgan Chase & Co;
IBM;
Kevin James Culligan, Maynard, Cooper & Gale, P.C.; 551 Fifth Avenue, Suite
2000; New York, NY 10176;
646-609-9282; kculligan@maynardcooper.com;
Counsel for IBM.
March 11,2021

Respectfully submitted,
30

Dr. Lakshmi Arunachalam, a woman,
222 Stanford Avenue, Menlo Park, CA 94025
Tel: 650.690.0995;Email: laks22002@vahoo.com
Dr. Lakshmi Arunachalam, a woman,
Self-Represented Appellant

EXHIBITS

31

19

App. 5a:
Dr. Markus Covert’s and Dr. Jay Tenenbaum’s
Expert Opinions, and Daniel Brune’s Amicus Curiae
Brief

IN THE PATENT AND TRADEMARK OFFICE
In re Patent No. 6,212,556
Patent Owner; WebXchange, Inc.
REEXAM Control NO: 90/010,417
Re-exam filing date: 2/23/2009
Patent issue date: 04/03/2001
Title: CONFIGURABLE
VALUE- ADDED NETWORK
(VAN) SWITCHING

)
)
)
)
)
)
)
)
)
)
)
)
)

Art Unit: 3992
Examiner: Z. Cabrera

DECLARATION OF DR. MARKUS W. COVERT

1.

My name is Dr. Markus W. Covert of 804 Clark Way, Palo Alto, CA 94304.

I have been retained to offer opinions with respect to prior art references cited in this
reexamination. I base these opinions on my education and training in informatics,
described below.
2.

I am currently an Assistant Professor of Bioengineering at Stanford

University and teach and do research in computational biology and bioinformatics. My
hourly rate in consulting is $250.
3.

For three years starting in January 2004,1 was a postdoctoral fellow at the

California Institute of Technology, working with the Nobel Prize winner and thenPresident of Caltech, David Baltimore. During that time, I was awarded a highly
competitive Damon Runyon postdoctoral fellowship, as well as a fellowship from the
National Institutes of Health, for my work in understanding complex biological systems.

I hold a Ph.D. degree in Bioengineering and Bioinformatics from the University of
California, San Diego, and was the first graduate of this competitive program.
4.

My resume is attached as an exhibit at the end of this declaration. I have

published several papers on computational biology and bioinformatics, including in such
journals as Science and Nature.

I also have taught a class at Stanford on

computational methods for studying biology for three years now.
5.

I am familiar with United States patent number 6,212,556 (“the ‘556

patent”) and the current reexamination (control number 90/010,417).

In particular, I am

familiar with Requester’s arguments and Requester’s Cited Art:
1. Payne (US 5,715,314);
2. McPartlan (US 5,822,569);
3. Kahn (US 6,135,646);
4. Shwed (US 5,835,726);
5. Braden (RFC 1122 - “Requirements for Internet Hosts - Communication
Layers”);
6. CORBA (“The Common Object Request Broker: Architecture and Specification
Revision 2.0 July 1995, Updated July 1996”);
7. Orfali (“The Essential Distributed Objects Survival Guide” - Robert Orfali, Dan
Harkey, Jeri Edwards, 1996 John Wiley &Sons);
8. Popp (US 6,249,291);
9. Gifford (US 5,724,424; US Ser. No. 08/168,519);
IQ.Ginter (US 5,910,987);
11. Crandall (US 5,159,632);

-2-

12.Elgamal (US 5,671,279);
13. Atkinson (RFC 1825 - “Security Architecture for the Internet Protocol"); and
14.Birrell (Network Objects -

SRC Research Report 115, Andrew Birrell, Greg

Nelson, Susan Owicki, and Edward Wobber).
6.

I have found that all of these documents are missing several critical

aspects found in Claims 1-30 of the ‘556 patent. I will begin with Payne and Gifford.
Payne and Gifford are closely related to each other. Both describe a user jumping from
one URL to another URL, otherwise known as Web browsing,

Payne and Gifford

describe a user typing in a URL and browsing the Website of a Merchant, who displays
the images of products. They further describe that the Web server serves standard
HTML documents (more commonly known as Web pages) to the user. The user may
choose to go to another Website. In order to go to another Website, the user must
leave the Merchant Website. When the user chooses to hotlink to another URL, there
is only one computer system, the Web server, that he browses.
7.

The merchant Web server presents a Web page with a hotlink in it. When

the user clicks the hotlink, the user leaves the merchant Website. The user is no longer
at the merchant Website and is now at the payment Website. In other words, the user’s
browsing is one-to-one - only the user and the Web server are involved, and not a
second computer system. The payment Web server presents the user with a Web page
with a Web form, so the user may fill out personal information and hits the submit
button. The Web server strips the form and sends one field at a time to CGI using
standard I/O, which then forwards it to a Back-office application.

There is no Web

application, nor one with a data structure in the front-end Web page. Neither Payne nor

-3 -

Gifford contain any hint, mention of, or use of object-oriented programming techniques.
So there is no “object”, nor “object identity”, nor “networked object”, nor “object routing”,
much less on a “value-added network” atop the Web that offers a Web application as an
on-line service atop the Web.

There is no data structure, nor an encapsulated data

structure, that is transmitted from the Web page through a Web server to the Backoffice application. There is no connected Web application or a connected Back-Office
application. Gifford’s use of a timestamp or “nonce” does not change this. Payment
Web server presents a Web page with a hotlink in it. When the user clicks the hotlink,
the user leaves the payment Website. The user is no longer at the payment Website
and is now at the merchant Website. Again, only the user and the Web server are
involved, and not a second computer system. URLs are passed serially as the buyer
opens a new account, attempts login, etc.
8.

I find that the ‘556 patent has several aspects that are missing in Payne

and Gifford. One is embodied in the mention of an “object identity” with “information
entries and attributes.” Another aspect missing in Payne and Gifford is the use of an
“object” which is a data structure. Payne and Gifford have fields in a database, such as

ID, price, etc.

These fields are not “object identity” nor “attributes”, as they are not

related to a data structure or “object”, as in the ‘556 patent. A related aspect that is
missing in Payne and Gifford is the notion of a “networked object” that is described in
the ‘556 patent. Payne and Gifford do not automate the flow of a Web transaction over
an end-to-end channel, routing encapsulated data structures atop the Internet or Web
through a Web server to, for example, a Back-office application, as in the ‘556 patent.
Payne and Gifford are each missing “object routing”.

-4-

9.

“Object routing” leads to dramatic advantages of the ‘556 and its parent

patents over any of the Requester’s cited art, such as any-to-any communication, endto-end seamless automation, n-way transactions on the Web, an intelligent overlay
service network across the value-chain from user to provider, Web applications offered
as online services, a powerful platform for Web applications and services-on-demand
over the Web, cloud computing, and many more advantages.
10.

None of the references Requester has cited, discuss the exchange of

structured information between the user and transactional application executing for
example, at the Back-office of a Web merchant or between the purchaser, payment
service, merchant, and/or any other involved parties, nor an end-to-end channel
allowing an encapsulated data structure to be transmitted atop the Web through a Web
server from a Web page. None of the cited art describe an open channel dynamically
created on-demand through a Web server between a Web application and a
transactional application.
11.

In Payne and Gifford, the application logic is not on the front-end Web

page, payment application is local to the Back-office, not on the front-end Web page.
Their database does not provide the correlation between front and back-end. There are
also several features of the ‘556 patent that are significantly missing in Payne and
Gifford, namely, the automation of the flow of a Web transaction in a Web application,
nor is there an intelligent service network atop the Web. Payne and Gifford do not even
hint at “object routing”, nor do they have a “networked object".

-5-

12.

Upon examination, it is clear that McPartlan has essentially nothing to do

with the ‘556 patent, Payne, Gifford, Ginter, or Popp,

McPartlan focuses on the

management of a physical network of physical devices.
13.

Unlike the ‘556 patent, McPartlan does not relate to Web applications,

including Internet commerce. The physical device in McPartlan is referred to as an
object, but the McPartlan object is not a data structure. Nor is it a data structure upon
which methods, operations or transactions can be performed, as one might with the
“object” in the ‘556 patent, such as making a travel reservation on the Web, etc. The
McPartlan object is not even related to object-oriented programming.

There is no

“object routing” in McPartlan. No methods, nor operations upon McPartlan’s objects, nor
object routing are possible or even mentioned or alluded to in McPartlan.
14.

There are also several features of the ‘556 patent that are significantly

missing in Ginter. Ginter describes a digital rights management system, which includes
a container with content (for example, a digitized film) and a code key to unlock the
content for use. This container is termed an object in Ginter, but has no relationship to
the “object” in the ‘556 patent. The Ginter container has an ID; however, this ID is a
field in a database. Furthermore, the control described in Ginter is not the distributed
control of the ‘556 patent, that includes “networked object”, “object routing”, automation
of the flow of a Web transaction in a Web application, nor of an intelligent service
network atop the Web.
15.

Of all the prior art cited by the Requester, only Popp refers to object-

oriented programming. Popp teaches the use of object-oriented programming to create
new web pages automatically. The object-oriented programming objects described in

-6-

Popp are display elements - in other words, object-oriented programming is used to
generate HTML text which can be read as web pages in browsers. Popp does not even
hint at “object routing”, nor does he have a “networked object”. When Popp talks about
control, he talks about the control of the template of a Web page, for repetitive elements
on a Web page and for varying the display.
16.
controversial.

In

November

1995,

object-oriented

programming

was

still

quite

The few truly object-oriented programming languages were not in

widespread use.

It was more common to find languages which were adapted to

include some object-oriented features. “Controversial” is the antithesis of “obvious”.
17.

Several features of the ‘556 patent are missing from the cited art, and are

not obvious in any way, even if the cited references were combined in different
permutations or taken individually. These include, but are not necessarily limited to,
“networked object”, and “object routing”, as described in detail above. There would
have been no motivation or possibility to combine hardware monitoring and diagnostics
as in McPartlan with rendering of a Web page as in Popp, or with hotlinking, Web
browsing, CGI and HTML as in Payne and Gifford, or with encryption key for protecting
from piracy of content as in Ginter, or with transport layer messages via the physical
Internet as in CORBA and Orfali, individually or in any permutation of the above. The
*556 patent, therefore, makes several substantial, non-intuitive innovative leaps beyond
the state of the cited art, all together as well as separately.
18.

In Dr. Arunachalam’s inventions in the ‘556 patent, a “value-added

network” is a service network atop the Web that offers a Web application connecting to
a transactional application. A “value-added network” is a service network over which

-7-

real-time Web transactions can be performed from a Web application by accessing a
transactional application offered as an on-line service via the Web.
19.

A service network offers a service, or an on-line service atop the Web. A

service is an application, as stated in the ‘556 and its parent patents as “a particular
type of application or service”. An on-line service atop the Web is a Web application.
So, a “value-added network” is a service network atop the Web, that offers a Web
application as an on-line service. The Web application offered over the service network
atop the Web is the value-add in the value-added network.
20.

In the ‘556 patent, a “value-added network” includes “a service network

running on top of an IP-based facilities network such as the Internet, the Web

This

distinction of:
a service network over a physical network or IP-based facilities network,
such as the Internet, the Web or email networks;
the service network atop the Web versus the physical Internet; and
the application layer, as in the application layer of the OSI model, as in
the ‘556 patent versus the lower layers such as the transport layer, like
TCP/IP, or link layer or network layer or MAC layer
needs to be kept in mind in distinguishing the ‘556 patent from the Requester’s cited
art. On-the-wire communication at the transport layer, such as CORBA, Orfali, Birrell
Braden, Kahn, Ginter; physical network like Shwed, Braden, McPartlan, is clearly at a
lower layer versus a “value-added network”, as in the 556 patent.
21.

In the ‘556 patent, a user specifies a real-time Web transaction from a

Web application connecting to a transactional application, as opposed to mere Web

-8-

browsing. If this were mere Web browsing as described in Payne, Gifford and Popp,
one would never get past the Web server to a Back-Office transactional application.
They would never make it to a Back-Office in real-time, let alone to a transactional
application at the Back-Office. That is one of the reasons they end up with deferred
transactions.
22.

The ‘556 patent describes a user value-chain in which real-time Web

transactions occur from a user interacting with a Web application. The user value-chain
consists of:
a user,
a Web server,
a Web page displaying one or more Web applications,
a Web application including “object”(s) or data structures specific to the
Web application,
a user transaction request from a Web application,

object router,
«

an open channel over which “objects” are routed through a Web server,
a transactional application to service the request

+

a service network connecting a Web application to a transactional
application, (aka a value-added network), and
real-time Web transaction.

23.

If the Requester’s cited art is considered individually or in any

combination, no real-time Web transactions occur from a user interacting with a Web
application. None of the cited art offers a Web application.

-9-

24.

In Payne, Gifford and Popp, there is a user, a Web server, and even a

Web page, but not a Web page displaying one or more Web applications. Their user
value-chain does not result in real-time Web transactions from a user interacting with a
Web application, for a simple reason that there is no Web application.
25.

in McPartlan, Braden, Shwed, there is a physical network, but no service

network and not even a user for there to be a user value chain. No real-time Web
transactions occur from a user interacting with a Web application.
26.

In CORBA, Orfali, Birrell, there is a transport layer, that is a lower layer

than the application layer, and there is no service network. They describe objects, but
no Web applications. There is no data structures specific to a Web application. There is
no user transaction request from a Web application. There is no object routing. There is
no service network connecting a Web application to a transactional application, (aka a
value-added network). No real-time Web transactions occur from a user interacting with
a Web application.
27.

In Kahn, Ginter, Atkinson, Crandall, Elgamal, there is no service network

and no Web application. They offer encryption and digital rights’ management. Kahn
and Ginter describe objects, but not objects that are data structures. Their objects are
files, for example, video files, that need to be protected from piracy. Such files may be
shared from a network server via a LAN, which is a physical network. There is no user
transaction request from a Web application. There is no object routing. There is no
service network connecting a Web application to a transactional application, (aka a
value-added network). No real-time Web transactions occur from a user interacting with
a Web application.

-10-

28.

By combining these four groups of Requester’s cited art, namely:
• the Web server group (Payne, Gifford, Popp),
• the physical network group (McPartlan, Braden, Shwed)
• the transport layer group (CORBA, Orfali, Birrell), and
• the file sharing over a physical network group (Kahn, Ginter,
Atkinson, Crandall, Elgamal)

they are still missing the inventive novelty in the '556 patent, namely:
• a Web application,
•

“object”(s) or data structures specific to a Web application,

•

a user transaction request from a Web application,

• object routing,
•

a service network connecting a Web application to a transactional application,
and

•

an open channel over which “objects" are routed through a Web server.

Therefore, Requester’s cited art in any combination cannot re-create Patentee’s
inventions, namely, a configurable value-added network switch that enables real-time
Web transactions on a value-added network atop the Web.
29.

In addition, Patentee’s inventions enable:

•

n-way real-time Web transactions,

•

automating a transaction from beginning to end in real-time,

•

holding a transaction captive at the network entry point on the Web,

•

aggregation of Web application content,

• dynamic virtual packaging

-11 -

remote service partners,
routing switch within the application layer of the OSI model,
transactional application selection mechanism,
PoSvc application list on a Web page,
user selects a transactional application,
“user specification from a network application”,
connected Web application,
“transaction link between network application and transactional application,”
“connected with the value-added network with the transactional application,”
service network that offers a Web application,
“service network on top of an IP-based facilities network,"
service network control
usage-based services,
enabling service management of the value-added network service, to perform
OAM&P functions on the services network,
automated state management,

DOLSIB, and
client-server-client server n-way in n-tier management model.
Terms such as aggregation of content, dynamic virtual packaging, value-added servicespecific virtual private network of remote service partners relate to the n-way
transactions and co-operating service partners, packaging and aggregating Web
applications as content in Applicant’s patents. Once again, Requester’s cited art lack
these features.

-12-

30.

In the ‘556 patent, a value-added network switch connects a user with an

on-line service in a service network atop the Web that offers a Web application
connecting to a transactional application. A value-added network switch links a user
with an on-line service in a service network offering a Web-enabled transactional
application. A "VAN switch” provides distributed control of the flow of a Web transaction
in a Web application in a service network atop the Web. A “VAN switch” is an end-toend solution that provides the value-added network service or Web application atop the
Web.

A ‘VAN switch” includes an “OSI application layer switch in a service network

atop the Web”. “Exchange and Management Agent constitute a VAN switch.” A VAN
switch consists of boundary service, switching service, management service and
application service. A VAN switch includes the Point-of-Service Web applications on a
Web page, connecting through a Web server to a transactional application, executing
anywhere across a service network atop the Web, utilizing object routing. A switch in a
physical network, as in a Cisco switch or Cisco router in a physical network, is not what
the “switch” in the '556 patent is about. Such a physical network switch operates
clearly at a lower layer than the “application layer network” or “service network atop the
Web”, as in the ‘556 patent.
31.

“Real-time transactions” in Applicant’s patents are real-time Web

transactions from a Web application. Real-time Web transactions are performed by a
user accessing

an

on-line

service

in

a

service

network offering

a Web-

enabled transactional application. Real-time Web transactions performed from a Web
application by accessing a transactional application offered as an on-line service via the
Web. In simple words, real-time Web transactions are performed over a “value-added

-13-

network” that is a service network atop the Web that offers a Web application
connecting to a transactional application. There is a clear distinction between Web
browsing versus real-time Web transactions from a Web application, as described
in the ‘556 patent. It is noteworthy that there is an absence of a Web application in
each of Requester’s cited art. So, no real-time transactions are performed in
Requester’s cited art, because there are no real-time Web transactions from a non­
existent Web application.
32.

Requester’s cited art may include an application local to the Back-end. It

does not necessarily follow that such an application connects to a Web application at
the front-end.

This leaves behind a disjointed island of information not connected

through a Web server to a non-existent front-end Web application.
33.

In the ‘556 patent, for the purposes of clarification, a “transactional

application” is a PoSvc application. A “transactional application selection mechanism” is
a PoSvc application list on a Web page. A “network application” is a Web application
connecting to a transactional application over a service network atop the Web. A “user
application” is a PoSvc transactional application or a Web application. A “user
specification from a network application” is a Web transaction specified by a user from a
Web application connecting to a transactional application over a service network atop
the Web. A “user specification from a network application” is a real-time Web
transaction specified by a user, a Web transaction that a user desires to perform, to
access, for example, a Web merchant’s services via the Web, from a Web application
connecting to a transactional application over a service network atop the Web.

-14-

34.

All statements made herein of my own knowledge are true and all

statements made on information and belief are believed to be true.

Date:

Signature:
Dr. Markus W. Covert

-15-

<2.’U’2c?tQ

EXHIBIT A: DR. MARKUS W. COVERT’S RESUME

Positions
2007-

Assistant Professor, Department of Bioengineering, Stanford University,

2004-2006

Postdoctoral Scholar, David Baltimore Lab, Biology Division, Caltech.

2001

Research Scientist Consultant, Genomatica, Inc.

1998-2003

Graduate Student, Palsson Lab, Department of Bioengineering, UCSD.

1997-1998

Engineer, Research and Development, Elesys, Inc.

1996-1997

Research Assistant, Chemical Engineering Department, BYU.

Honors
2007-

National Cancer Institute, Pathway to Independence Award (K99/R00).

2004-2006

Damon Runyon Cancer Research Foundation, Postdoctoral Fellowship.

2004

National Cancer Institute, Postdoctoral Fellowship, 2004 (declined).

2003

University of California, San Diego, First Graduate in Bioinformatics.

1991-1997

Brigham Young University, Ezra Taft Benson Presidential Scholarship.

Professional Societies
2002-2009

Biomedical Engineering Society

1996-2003

American Institute of Chemical Engineers

-16-

Peer-reviewed publications (in chronological order)

1.

Lee TK, Denny EM, Sanghvi JC, Gaston JE, Maynard ND, and Covert MW.
“A stochastic switch determines the cellular response to LPS”, in revision.

2.

Seok J, Xiao W, Moldawer LL, Davis RW, and Covert MW. “A dynamic
network of transcription in LPS-treated human subjects”, in review.

3.

Hughey JJ, Lee TK, Covert MW. “Modeling Mammalian Signal Transduction
Networks” In Press, Wiley Interdisciplinary Reviews: Systems Biology.

4.

Terzer M, Maynard ND, Covert MW, and Stelfing J.“Genome-scale metabolic
networks", In Press, Wiley Interdisciplinary Reviews: Systems Biology.

5.

Covert MW (Corresponding Author), Xiao N, Chen TJ, and Karr JR.
"Integrated Flux Balance Analysis Model of Escherichia coli" Bioinformatics.
2008. Sep15;24(18): 2044-50. PMID: 18621757

6.

Covert MW, Leung TH, Gaston JE, Baltimore D. "Achieving stability of
iipopolysaccharide-induced NF-kB activation" Science. 2005. 309(5742):
1854-7.

7.

Covert MW. "Integrated regulatory and metabolic models" Computational
Systems Biology. Academic Press, New York, 2005.

8.

Herrg&rd MJ, Covert MW, Palsson B0. "Reconstruction of microbial
transcriptional regulatory networks" Curr Opin Biotechnol. 2004.15(1): 70-7.

9.

Covert MW, Knight EM, Reed JL, HerrgSrd MJ, Palsson B0. "Integrating
high-throughput and computational data elucidates bacterial networks"
Nature. 2004. 429(6987): 92-6.

-17-

10.

Covert MW, Palsson B0. "Constraints-based models: regulation of gene
expression reduces the steady-state solution space" J Theor Biol. 2003.
221(3): 309-25.

11.

Covert MW, Famili I, Palsson B0. "Identifying constraints that govern cell
behavior: a key to converting conceptual to computational models in biology?"
Biotechnol Bioeng. 2003. 84(7): 763-72.

12.

Herrgard MJ, Covert MW, Palsson B0. "Reconciling gene expression data
with known genome-scale regulatory network structures" Genome Res. 2003.
13(11): 2423-34.

13.

Covert MW, Palsson B0. "Transcriptional regulation in constraints-based
metabolic models of Escherichia coii" J Biol Chem. 2002. 277(31): 28058-64.

14.

Schilling CH, Covert MW, Famili I, Church GM, Edwards JS, Palsson B0.
"Genome-scale metabolic model of Helicobacter pylori 26695" J Bacteriol.
2002. 184(16): 4582-93.

15.

Covert MW, Schilling CH, Famili I, Edwards JS, Goryanin II, Selkov E
Palsson B0. "Metabolic modeling of microbial strains in silico" Trends
Biochem Sci. 2001. 26(3): 179-86.

16.

Covert MW, Schilling CH, Palsson B0. "Regulation of gene expression in flux
balance models of metabolism" J Theor Biol. 2001. 213(1): 73-88.

17.

Edwards JS, et al. "Genomic Engineering of Bacterial Metabolism"
Encyclopedia of Microbiology. Academic Press, New York, 2000.

-18-

Patents
1. Bradshaw, G.L., Covert, M.W., R.Q., Sorensen, M.K., and Unter, J.E., “Radial
Printing System and Method," United States Patent 6,264,295 July 2001
2. Paisson, B.O., Covert, M.W., and M. J. Herrgard, “Models and Methods for
Determining Systemic Properties of Regulated Reaction Networks”. Patent
Pending (Application Number 20040072723)
3. Paisson, B.O., Famili, I., and Covert, M,V. and C.H. Schilling, “Human
Metabolic Models and Methods,” Patent Pending (Application Number
20040029149).
4. Paisson, B.O., Covert, M.W., and C.H. Schilling, “Models and Methods for
Determining Systemic Properties of Regulated Reaction Networks,” Patent
Pending (Application Number 20030059792).

-19-

IN THE PATENT AND TRADEMARK OFFICE
In re patent No. 7,340,506
Patent Owner: WebXchange, Inc.
REEXAM Control NO: 95/001,129
Reexam filing date: 12/19/2008
Patent issue date: 03/04/2008
Title: VALUE-ADDED NETWORK
SWITCHING AND OBJECT
ROUTING

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Art Unit: 3992
Examiner: Z. Cabrera

DECLARATION OF DR. JAY M. TENENBAUM
1.

My name is Dr. Jay M. Tenenbaum. My address is 169 University Avenue,

Palo Alto, CA 94301.

I have been asked to offer opinions with respect to prior art

references cited in this reexamination. I base these opinions on my experience as a
recognized pioneer and visionary in Internet and Web technologies, and my training and
education.
2.

I am currently Chairman and Chief Scientist of CollabRx, Inc. in Palo Alto,

CA. I bring to CollabRx the unique perspective of a world-renowned Internet commerce
pioneer and visionary. I was Founder and CEO of Enterprise Integration Technologies
the first company to conduct a commercial Internet transaction (1992), secure Web
transaction (1993) and Internet auction (1993). In 1994, I founded CommerceNet, the
first industry association for Internet Commerce. In 1997, I co-founded Veo Systems,
the company that pioneered the use of XML for automating business-to-business
transactions. I joined Commerce One in January 1999, when it acquired Veo Systems.

As Chief Scientist of Commerce One, I was instrumental in shaping the company’s
business and technology strategies for the Global Trading Web. Post Commerce One, I
was an officer and director of Webify Solutions, which was sold to IBM in 2006, and
Medstory, which was sold to Microsoft in 2007. Earlier in my career, I was a prominent
Al researcher and led Al research groups at SRI International and Schlumberger Ltd. I
am a fellow and former board member of the American Association for Artificial
Intelligence, and a former consulting Professor of Computer Science at Stanford. I
currently serve as a director of Efficient Finance, Patients Like Me, and the Public
Library of Science, and am a consulting professor of Information Technology at
Carnegie Mellon’s new West Coast campus. I hold B.S. and M.S. degrees in Electrical
Engineering from MIT, and a Ph.D. from Stanford.
3.

At CollabRx, I am applying my knowledge as a pioneer in Internet

technologies to personalized genomic medicine. I am working to slash the time and
cost of developing personalized therapies for those with rare and neglected diseases by
creating virtual biotechs that marry advances in genomics and computational/systems
biology with the efficiencies of web-based collaborative research. At CollabRx, I am
aiming to transform the life sciences industry—by connecting research labs, biotechs
pharmas and their service providers into a networked ecosystem of interoperable
research services that can be rapidly assembled to develop new therapies with
unprecedented efficiencies and economies of scale. My mission is finding treatments for
rare and orphan diseases within the lifetimes and collective means of current patients.
Today there are over 6,000 such diseases identified, afflicting over 25 million people.

-2-

4.

Attached as Exhibit A is my resume. I have published many papers, been

awarded numerous patents, and received many honors during my career on a wide
range of topics, from Internet and Web technologies to Web-based collaborative
personalized genomic medicine to Internet technologies applied to computational
biology and bioinformatics to Al.
5.

I have been briefed by the inventor on U.S. Patent 7,340,506 titled Value-

Added Network Switching and Object Routing (‘“the ‘506 patent”), the provisional
application 60/006634 (“the ‘634 provisional application”); and the references that have
been asserted against the ‘506 patent in the reexamination proceeding including U.S.
Patent 6,249,291 to Popp (“Popp”); U.S. Patent 5,715,314 to Payne (“Payne”) and U.S.
Patent 5,910,987 to Ginter (“Ginter”), U.S. Patent 5,724,424 to Gifford (“Gifford”), and a
set of references directed to the Simple Network Management Protocol including
“Structure and Identification of Management Information for TCP/IP-based Internets,”
Rose and McCloghrie, Network Working Group Requests for Comments No. 1155
(“Rose RFC 1155”), “Management Information Base for Network Management of
TCP/IP based Internets: MIB-II,” Network Working Group Request for Comments No.
1213 (“McCloghrie RFC 1213”), “Party MIB for version 2 of the Simple Network
Management Protocol (SNMPv2),” Network Working Group Request for Comments No.
1447 (“McCloghrie RFC 1447”), and “Managing Internetworks with SNMP: the definitive
guide to the Simple Network Management Protocol and SNMP version 2” by Mark A.
Miller (“Miller”).
6

It is my understanding, based on these briefings, that the ‘506 patent is

directed to interactive Web applications and exchange across a service network atop

-3 -

the Web. More particularly, a Point of Service (PoSvc) application that encapsulates the
application logic in a data structure called an “object” is provided at a Web page. This
makes it a starting point for the control of the user experience and automation of the
transaction flow. The application logic is specific to and associated with the business
process of the on-line service offered by a provider atop the Web. The operations that
may be performed upon this data structure are the transactions a user may perform in
the value-added service or business process. Associating “information entries” input by
a user with the “attributes” in the data structure personalizes the transaction. The
instantiated data structure, called an “object identity”, is transmitted/routed over an open
channel across a value-added service network atop the Web. This type of
communication between the personalized data structure with the, transactional “object”
executing in a Back-office application of a Web merchant makes it a “networked object”
and is called “object routing” because the personalized data structure is transmitted
over the open channel atop the Web through a Web server. The open channel is
created on-demand, in real-time, so object routing can be performed when a user
transacts.
7.

I have been told that numerous examples of these Web applications are

described in the ‘506 patent, such as checking account, savings account, HR
applications, payroll applications, and other PoSvc applications on a Web page. These
allow users to perform two-way, three-way, extended to n-way transactions and any-toany communications on the Web, thus facilitating a large, flexible variety of robust, real­
time transactions on the Web.

-4-

8.

Prior to 1995, with the invention of the ‘506 patent, and the first public

demonstrations of the Java programming environment, simple Web publishing
storefronts were the norm. An application was local to the Back-office. There were no
PoSvc applications on the front-end on a Web page, much less connecting to a
transactional application executing, for example, at the Back-office.

There was no

application logic or business process logic at the front-end on a Web page. A Web form
was commonly filled out by a user and submitted to a Web server, but there was no
Web application on the Web page. Rather, these publishing storefronts merely
automated order-taking on the Web and passed a request from a Web server. The
invention in the ‘506 patent was a leap forward to automating interactive Web
applications by creating an open channel for routing objects through a Web server
across a service network atop the Web.

9.

The invention in the ‘506 patent represents the evolution of the Web from

Web publishing, Web forms, and CGI to automated Web applications and Web
transactions. The invention in the ‘506 patent filled a need for a universal, automated
open solution for Web applications and Web transactions. Communication of structured
information specific to online services over the Web provides distributed control of the
value-added service network and automation of the transaction flow. Transmitting the
application logic encapsulated as an “object” from a Web page to a transactional
application executing at the Back-office of a Web merchant serves to connect
application logic from a Web page to the Back-end. The inventor of the ‘506 Patent, in
contrast to other approaches at that time, viewed the problem to be solved as a
networking problem, advancing from the world of physical networks and lower layers of

-5 -

the OSI model, such as TCP/IP, to an intelligent overlay service network atop the Web
through a Web server from a PoSvc application on a Web page across an open channel
to the Back-office of a Web merchant.
10.

I have reviewed documents relating to use of Microsoft .net by companies

such as Dell (“New Dell Sales Tool Can Reduce Dell Sales Call Times by 10 Percent or
More, Substantially Improve Profitability, Exhibit B); and Allstate (“Allstate Uses Web
Services To Quickly Create Insurance Policy Management Solution,” Exhibit C and
“Allstate Connects With Countrywide Producer Network In Seven Months Using
Microsoft Visual Studio .Net And The .Net Framework,” Exhibit D). It my opinion based
on my knowledge of Web commercial services and my review of documents such as
those at Exhibits B, C, and D, that products such as Dell.corn’s Tax and Shipping web
service, Dell.com order status web services, the Allstate Customer Care Center and
accessAllstate.com, Fedex Ship Manager@FedEx.com, Fedex Global Trade Manager,
and Fedex’s Web Services i) have achieved commercial success and ii) have achieved
that commercial success because they use concepts covered by the ‘506 patent. For
example, they create objects that are personalized for a user (e.g., a customer) and
that can be routed to an application executing on a second computer system anywhere
on the network.

11.

SNMP is a protocol for monitoring and managing physical devices in a

network. As I understand it, SNMP has nothing to do with Web applications and the ‘506
patent.
12.

Based on the briefing I received, it is therefore my opinion that none of the

references listed in paragraph 5 disclose the invention of the ‘506 patent.

-6-

13.

All statements made herein of my own knowledge are true and all

statements made on information received via briefings are believed to be true.

r*

\V"

W

\ ! :

)

/V\

!■; -'C

]

'

Date: May 31. 2009

Signature:
Dr. Jay M. Tenenbaum

-7-

EXHIBIT A: DR. JAY M. TENENBAUM’S BIO

Jay M. Tenenbaum, Ph.D., Chairman and Chief Scientist, CollabRx:
Jay M. ("Marty") Tenenbaum is the founder, Chairman and Chief Scientist of CollabRx.
Dr. Tenenbaum brings to CollabRx the unique perspective of a world-renowned Internet
commerce pioneer and visionary. He was founder and CEO of Enterprise Integration
Technologies, the first company to conduct a commercial Internet transaction (1992)
secure Web transaction (1993) and Internet auction (1993). In 1994, he founded
CommerceNet to accelerate business use of the Internet. In 1997, he co-founded Veo
Systems, the company that pioneered the use of XML for automating business-tobusiness transactions. Dr. Tenenbaum joined Commerce One in January 1999, when it
acquired Veo Systems. As Chief Scientist, he was instrumental in shaping the
company’s business and technology strategies for the Global Trading Web. Post
Commerce One, Dr. Tenenbaum was an officer and director of Webify Solutions, which
was sold to IBM in 2006, and Medstory, which was sold to Microsoft in 2007. Earlier in
his career, Dr. Tenenbaum was a prominent Al researcher and led Al research groups
at SRI International and Schlumberger Ltd. Dr. Tenenbaum is a fellow and former board
member of the American Association for Artificial Intelligence, and a former consulting
professor of Computer Science at Stanford. He currently serves as a director of Efficient
Finance, Patients Like Me, and the Public Library of Science, and is a consulting
professor of Information Technology at Carnegie Mellon's new West Coast campus. Dr.
Tenenbaum holds B.S. and M.S. degrees in Electrical Engineering from MIT, and a
Ph.D. from Stanford.

-8-

CollabRx is slashing the time and cost of developing personalized therapies for those
with rare and neglected diseases by creating virtual biotechs that marry advances in
genomics and computational/systems biology with the efficiencies of web-based
collaborative research. CollabRx

aims to transform the life sciences industry—by

connecting research labs, biotechs, pharmas and their service providers into a
networked ecosystem of interoperable research services that can be rapidly assembled
to develop new therapies with unprecedented efficiencies and economies of scale. Their
mission is finding treatments for rare and orphan diseases within the lifetimes and
collective means of current patients. Today there are over 6,000 such diseases
identified, afflicting over 25 million people. In the coming age of personalized genomic
medicine, every disease will be rare and every individual’s condition unique.

-9-

20-2196
In The

UNITED STATES COURT OF APPEALS
For The Federal Circuit
Dr. Lakshmi Arunachalam,
a woman,

v.
CITIGROUP INC.,
CITICORP,
CITIBANK N.A.,
Defendants-Appellees,
DOES 1-100,
Defendants,

Appeal from the United States District Court for the District of Delaware
in Case No. 1:14-cv-00373-RGA. Judge Richard G. Andrews
Amicus Curiae, Daniel Brune’s
MOTION FOR LEAVE TO FILE AN AMICUS CURJAE BRIEF IN
SUPPORT OF PETITIONER’S PETITION FOR EN BANC REHEARING
November 12, 2020

Daniel Brune.
1200 Via Tomasol
Aptos, CA 95003
Tel: 831.818.5950; Email:danbmne@nie.com
Daniel Brune, Amicus Curiae

1

*X-T

I, Daniel Brune, hereby move this Court for leave to file an amicus curiae
brief in support of Petitioner, Dr. Lakshmi Arunachalam.
A:

Movant’s Interest:

My interest, as a movant, is in the process ofjustice, because it appears that this
essential ingredient is blocked in all of Dr. Lakshmi Arunachalam’s cases. I’m
hopeful that this court may eventually achieve justice, as the Petitioner is otherwise
left with protected rights and no remedy.
(B) The reason why an amicus curiae brief is desirable and why the matters
asserted are relevant to the disposition of the case:
An amicus curiae brief is desirable, because there has been a denial of due process
by the courts which have failed to perform their ministerial duty to uphold their
solemn oaths of office to defend the Constitution. The courts have dismissed over
100 of Petitioner’s cases without a hearing. It’s been proven that some of the
judges hearing these cases own direct stock in the Defendants. They are effectively
acting as attorneys to the Defendant and ordering the Defendant to go into Default.
It does not appear accidental that this has happened in over 100 cases.
The matters asserted in this case are relevant to the disposition of the case because
the courts, clerks and the USPTO/PTAB failed to perform their ministerial duty to
uphold their solemn oaths of office to enforce the Constitution — the Law of the
Case and Law of the Land. In doing my research, I was the first to discover the
2

Supreme Court precedents that apply to this case and must be enforced by this
Court— Trustees ofDartmouth College v. Woodward, 17 U.S. 518 (1819); Grant
v. Raymond, 31 U.S. 218 (1832); U.S, v. American Bell Telephone Company, 167
U.S. 224 (1897); Ogden v. Saunders, 25 U.S. 213 (1827) and affirmations thereof.
Chief Justice Marshall declared the sanctity of patent grant contracts between the
Federal Government and the inventor, in accordance with the Contract Clause, IP
Clause and Separation of Powers Clause of the Constitution and ruled that any
Orders that failed to uphold the obligation of contracts in accord with the
Constitution are void and unconstitutional. This constitutes denial of due process.
The Courts have oppressed Dr. Arunachalam, who has not had her day in court in
over 100 cases.
CONSENT: Opposed.
CONCLUSION: Wherefore, I request that the Court grant my Motion.
November 12,2020

Respectfully submitted,

Daniel Brune
1200 Via Tomaso1
Aptos, CA 95003
Tel. 831-818-5950
Email: danbmne@me.com
Daniel Brune, Amicus Curiae

3

20-2196

In The

UNITED STATES COURT OF APPEALS
For The Federal Circuit

Dr. Lakshmi Arunachalam,
a woman,
V.

CITIGROUP INC.,
CITICORP,
CITIBANK N.A.,
Defendants-Appellees,
DOES 1-100,
Defendants,

Appeal from the United States District Court for the District of Delaware
in Case No. 1:14-cv-00373-RGA, Judge Richard G. Andrews

Amicus Curiae, Daniel Brune’s
AMICUS CURIAE BRIEF IN SUPPORT OF PETITIONER’S PETITION
FOR ENBANC REHEARING
November 12, 2020

Daniel Brune,
1200 Via Tomasol
Aptos, CA 95003
Tel: 831.818.5950; Email:danbrune@me.com
Daniel Brune, Amicus Curiae

4

TABLE OF CONTENTS

6

TABLE OF AUTHORITIES

STATEMENT OF IDENTITY OF THE AMICUS CURIAE, ITS INTEREST IN THE CASE,
AND THE SOURCE OF ITS AUTHORITY TO FILE............ .................... ....................... ,7
STATEMENT OF AMICUS CURIAE ON WHO AUTHORED THE BRIEF AND WHO
CONTRIBUTED MONEY TO AUTHOR THE BRIEF........................... ............... .

,.8

AMICUS CURIAE BRIEF

10

CONCLUSION

11

CERTIFICATE OF COMPLIANCE WITH FRAP 32(a)(7)(B)

13

CERTIFICATE OF SERVICE

14

5

TABLE OF AUTHORITIES

Cases:
Grant v. Raymond,
31 U.S. 218 (1832)

3

Ogden v, Saunders,
25 U.S. 213 (1827)

3

Trustees of Dartmouth College v. Woodward,
17 U.S. 518(1819).............. ........... .
U.S. v. American Bell Telephone Company,
167 U.S. 224 (1897).......... .

6

j

3

STATEMENT OF THE IDENTITY OF THE AMICUS CURIAE,
ITS INTEREST IN THE CASE, AND
THE SOURCE OF ITS AUTHORITY TO FILE
1, Daniel Bmne, the amicus curiae in this case, live in California at 1200 Via
Tomasol, Aptos, CA 95003.
I am a former U.S. Air Force Major and Senior Pilot who served over 12 years on
active duty. I was awarded two Air Medals for flying potentially hazardous
surveillance missions over the Middle East that were ordered by the Joint Chiefs of
Staff. After an honorable discharge from the U.S. Air Force, 1 was hired by a
major international airline, retiring in 2017. My service to this country began when
I solemnly swore that I “will support and defend the Constitution of the United
States against all enemies, foreign and domestic; that I will bear true faith and
allegiance to the same; that I take this obligation freely, without any mental
reservation or purpose of evasion; and that I will well and faithfully discharge the
duties of the office on which I am about to enter. So help me God”. To this day, I
still abide by that oath. Likewise, I expect our judges to abide by their solemn oath
to “administer justice without respect to persons, and do equal right to the poor and
to the rich, and that I will faithfully and impartially discharge and perform all the
duties incumbent on me as a judge under the Constitution and laws of the of the
United States. So help me God.” Attorneys also swear an oath to support the
Constitution, which I expect them to honor as well. My question is: why is this not
7

happening in the cases of Dr. Lakshmi Arunachalam? Was she not to expect the
same treatment of other citizens of this country? Was this elderly, disabled, female
of color, who continually works night and day to convince a court to give her the
same considerations as those with more money and power, somehow lesser in
stature or importance in the eyes of the law? I think not, and I am appalled that
this is even an issue. I cannot think of any inventor who has provided the world
with such a ground-breaking invention - the actual first step to every technological
thing we enjoy today - who has been so ignored by the courts. Primarily, she has
not had her day in court in over 100 cases! She has been denied her due process
and right to trial by jury. I was always under the impression that the courts would
listen to every aspect of a case and not deny the landmark Supreme Court
precedents that have endured for over two hundred years.
AMICUS CURIAE’S INTEREST IN THIS CASE: is in the process of justice,
because it appears that this essential ingredient is blocked in all of Dr. Lakshmi
Arunachalam’s cases. It is hopeful that this court may eventually achieve justice,
as the Petitioner is left with protected rights and no remedy.
SOURCE OF AMICUS CUMAE'S AUTHORITY TO FILE: I sent an email on
November 12, 2020 to Appellees in this case for consent to file this amicus curiae
brief. Appellees oppose. I further filed a Motion for Leave to file this Amicus
Curiae Brief.
8

STATEMENT OF AMICUS CURIAE ON WHO AUTHORED THE BRIEF
AND WHO CONTRIBUTED MONEY TO AUTHOR THE BRIEF:
1. I, Daniel Brune, declare that I authored this brief.
2. Neither Petitioner or Appellees nor their counsel authored the brief in whole
or in part.
3. No party or a party's counsel contributed money that was intended to fond
preparing or submitting the brief; and
4. No person, - other than the amicus curiae, who is an individual, (there are no
members, and no counsel) - contributed money that was intended to fond
preparing or submitting the brief
November 12,2020

Respectfully, submitted,
Daniel Brune,
1200 Via Tomasol
Aptos, CA 95003
Tel: 831.818.5950; Emai 1 :danbrune@me.com
Daniel Brune, Amicus Curiae

9

AMICUS CURIAE BRIEF IN SUPPORT OF PETITIONER DR. LAKSHMI
ARUNACHALAM’S PETITION FOR ENBANC REHEARING
I, Daniel Brune, an amicus curiae, hereby file this Amicus Curiae Brief in
support of Petitioner, Dr. Lakshmi Arunaehalam.
SUMMARY OF ARGUMENT: I served this country because I believe in its
ideals, and the opportunities it makes available to anyone with the knowledge,
skill, and determination to realize their dreams. It should go without saying that
“liberty and justice” is expected to be afforded to all.

I have followed Dr.

Arunaehalam’s cases because it became increasingly obvious that she somehow
didn’t matter to the judiciary. When I find the number of cases where her due
process has been denied her, some where the judges themselves held some type of
stock ownership in the defendants, I am nearly speechless. How can this occur in
the United States of America with a Constitution that has served us well for so
long? This is a shameful example of how public officials have failed to perform
their ministerial duties, thus denying Petitioner due process by ignoring their
solemn oaths of office to defend the Constitution.
ARGUMENT: Dr. Arunaehalam has done everything by the book. The Law of the
Case and the Law of the Land are firmly in her favor. Ignoring Supreme Court
precedents and other similar behavior should have been identified and stopped long
ago, by judges who had earlier knowledge of her cases, their strength, and their
veracity. This brilliant inventor, forced to act as her own attorney due to financial
10

hardships caused by this apparently flawed system, deserves to have her due
process restored.
This is undoubtedly an extraordinary situation, where Dr. Lakshmi Arunachalam,
an American citizen, has continually been denied due process by the courts. Court
officials’ ministerial duties to enforce the Constitution have been ignored in over
100 cases, requiring this Court to reverse the District Court and allow Dr.
Arunachalam to have her day in Court. Numerous legal precedents have also been
ignored, which cannot be allowed to continue in a legal system long considered to
be the best in the world.
CONCLUSION: It should be evident to all who read this brief that there is
something wrong with the egregious treatment endured by Dr. Arunachalam over
the course of her many cases brought before the judiciary. Please give this brilliant,
gifted inventor the chance to have her “day in court” and the opportunity to present
her cases completely - not ignoring the entirety of the record. I believe that if this
examination is made, any reasonable person will see Dr. Arunachalam’s invention
is, fundamentally and foundationally, the technology which we know as the
Internet of Things - Web Applications Displayed on a Web Browser. Without her
technology, literally trillions of dollars of market capitalization would not exist.
Dr. Arunachalam deserves to claim her rightful ownership of what she alone has
created. To ignore this request to restore due process for one inventor will harm
ll

innovation. It will be a signal to other inventors that there is no incentive to put the
time, effort, and money into a potentially lifesaving or life-altering invention, due
to the probability that large corporations with more money, power, and influence
will take it as their own.
November 12,2020

Respectfully submitted,
Daniel Brune
1200 Via Tomasol
Aptos, CA 95003
Tel: 831.818.5950; Email: danbmne@me.com
Daniel Brune, Amicus Curiae

12

CERTIFICATE OF COMPLIANCE WITH FRAP 32(g)
The undersigned hereby certifies that this brief complies with the typevolume limitation of Federal Rules of Appellate Procedure 32(g).
1.

The brief contains 539 words, excluding the parts of the brief exempted by
Federal Rule of Appellate Procedure 32(a)(7)(B)(iii).

2.

The brief has been prepared in a proportionally spaced typeface using
Microsoft Word in 14 point Times New Roman font.

November 12, 2020

Respectfully submitted,

Daniel Brune
1200 Via Tomasol
Aptos, CA 95003
Tel; 831.818.5950; Email: danbrune@me.com
Daniel Brune, Amicus Curiae

13

CERTIFICATE OF SERVICE
I certify that on November 12,2020,1 filed an original of the foregoing briefs, with
the Clerk of the Court in the United States Court of Appeals for the Federal
Circuit, via the USPS to:
The Clerk of the Court,
U.S. Court of Appeals for the Federal Circuit,
717 Madison Place NW, Washington, DC 20439
and I certify that on the same day , I served a copy on counsel of record for all
Appellees, via email and/or via the U.S. Postal Service at the following address:
Citi Group, Inc., Citicorp, CitiBank, N.A.;
Nicholas Hunt Jackson, Dentons US LLP
1900 K Street NW, Washington, DC 20006
(202) 408-6463; Email: nicholas.iackson@dentons.com
Eric Sophir; Foley & Lardner LLP
Washington Harbour
3000 K Street, N.W. j Suite 600
Washington, D.C. 20007-5109
Direct 202.295.4149; Cell 202.714.0431; esophir@,folev.com
Counsel for Appellees, Citi Group, Inc., CitiBank, N.A;
November 12,2020

Respectfully submitted,
Daniel Brune
1200 Via Tomasol
Aptos, CA 95003
Tel: 831.818.5950; Email: danbrune@me.com
Daniel Brune, Amicus Curiae

14

